<html>
<title> - CRISIS IN SYRIA: THE U.S. RESPONSE</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                   CRISIS IN SYRIA: THE U.S. RESPONSE
=======================================================================



                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 20, 2013

                               __________

                           Serial No. 113-10

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______




                  U.S. GOVERNMENT PRINTING OFFICE
80-121                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
TREY RADEL, Florida                  GRACE MENG, New York
DOUG COLLINS, Georgia                LOIS FRANKEL, Florida
MARK MEADOWS, North Carolina         TULSI GABBARD, Hawaii
TED S. YOHO, Florida                 JOAQUIN CASTRO, Texas
LUKE MESSER, Indiana

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Robert S. Ford, American Ambassador to Syria.......     5
The Honorable Anne C. Richard, Assistant Secretary, Bureau for 
  Population, Refugees, and Migration, U.S. Department of State..    11
The Honorable Nancy E. Lindborg, Assistant Administrator, Bureau 
  for Democracy, Conflict and Humanitarian Assistance, United 
  States Agency for International Development....................    18

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Robert S. Ford: Prepared statement.................     7
The Honorable Anne C. Richard: Prepared statement................    13
The Honorable Nancy E. Lindborg: Prepared statement..............    20

                                APPENDIX

Hearing notice...................................................    56
Hearing minutes..................................................    57
The Honorable Eliot L. Engel, a Representative in Congress from 
  the State of New York: Prepared statement......................    59


                   CRISIS IN SYRIA: THE U.S. RESPONSE

                              ----------                              


                       WEDNESDAY, MARCH 20, 2013

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 9:52 a.m., in 
room 2172 Rayburn House Office Building, Hon. Edward Royce 
(chairman of the committee) presiding.
    Chairman Royce. This hearing will come to order, and today 
we meet to review the Syrian crisis.
    It was 2 years ago last week that on the nightly news we 
saw those protestors walking through the street chanting, 
``Peaceful, peaceful.'' And the thing the world saw next was 
that the Syrian forces opened up with small arms fire on the 
marchers. Over the ensuing weeks that was followed by artillery 
barrages, followed by tanks flattening villages, followed 
eventually by aerial bombardment, and finally by Scud missiles 
into cities.
    We are now 2 years into that Syrian uprising, and for 2 
bloody years U.S. policy has been adrift. Initially, the Obama 
administration saw Assad as a reformer in their words. Once the 
revolt started, it backed U.N. diplomacy, and then bet on 
Moscow to play a constructive role. Predictably, none of this 
has worked. Yet even today, Secretary Kerry talks of Assad 
coming to the table.
    This is the Assad who is bombing villages in Syria. This is 
the Assad who is ordering teenagers tortured and, frankly, is 
engaged in murdering his populace.
    The ancient city of Homs is now in ruins. Seventy thousand 
Syrians are dead. A million refugees have spilled into 
neighboring countries, destabilizing those countries. And there 
are troubling reports that Assad may be moving to unleash 
chemical weapons.
    The U.S. has been generous in supporting suffering Syrians, 
but perhaps naively so. Much of our humanitarian aid has been 
funneled through the U.N. and through other international 
organizations that are largely restricted to areas controlled 
by the Syrian regime. Now, that is absurd.
    Only recently has the U.S. begun to push food aid directly 
to the Syrian opposition. That shift, frankly, should 
accelerate and accelerate dramatically. I really wonder about 
providing any humanitarian aid through the U.N. that ends up 
going through the regime at all because it indirectly helps 
Assad and, therefore, presumably prolongs the conflict and 
prolongs the human suffering.
    Syria is today a humanitarian nightmare. It's also a great 
strategic challenge. At the end of the day, it might be an 
opportunity for reform in society in Syria, but it's also an 
opportunity with Assad gone because then Iran would lose a key 
ally, one critical to its terrorist operations, including 
against Israel. And that's why Iran and Hezbollah are massively 
stepping up their support of the Assad regime providing a 
lifeline of weapons and providing fighters on the ground. Much 
of this weaponry, by the way, flows through Iraq, and that 
can't continue without consequences.
    Unfortunately, jihadist groups are gaining strength and 
popularity in a portion of Syria. They've been able to convince 
too many Syrians that they are on their side. Al-Nusra and 
aligned radical groups fighting to remove Assad are also 
preparing for the day after his fall. They are competing with 
the civil society groups behind the free Syrian Army. Syrian 
extremists are translating their battle success into authority 
over society as a whole influencing courts, schools, and 
mosques, but I should say that most of those extremists are 
from outside Syria. This is something very vexing to civil 
society in Syria who have shared with us their concerns about 
the influx of these foreign fighters. Their concern is that 
these extremists are making inroads.
    To avoid such a hostile future Syria armed with chemical 
weapons, we need to help better organize and empower the Syrian 
opposition--those Syrians who began the revolt by chanting, 
``Peaceful, peaceful.'' We have let them down, and let our 
strategic interests down.
    Some believe that it is time to provide arms to vetted 
opposition groups. Others worry about a potentially lengthy and 
deepening engagement and note that many weapons are already 
flowing into Syria. But the British and French have come to 
realize the biggest winner in the arms embargo has been Assad. 
Everything should be considered, but the U.S. could have the 
greatest impact through training, intelligence, and logistics.
    It has been said that the U.S. has no good options in 
Syria, and that's probably true. Stay away, as we mainly have, 
and bad things are guaranteed to happen. Get more involved, as 
some are calling for, and good things might happen. All of it 
is incredibly unpredictable. The best we can do is know what we 
can, realize what we can't, and make decisions as we must.
    I'll now turn to Congressman Ted Deutch, who fills in for 
Ranking Member Engel. Big shoes to fill today, especially given 
Mr. Engel's efforts on Syria over many years, which has helped 
move the administration to more actively consider the range of 
U.S. options in recent weeks. Mr. Deutch.
    Mr. Deutch. Thank you, Mr. Chairman. And thank you, 
Ambassador Ford, Assistant Secretary Richard, Assistant 
Administrator Lindborg for being with us today. And I'd also 
like to take a moment to recognize my friend, the ranking 
member Eliot Engel, who couldn't be here today as he is in 
Israel for President Obama's visit, but he's long been one of 
the most engage Members of Congress on Syria, and on this 
conflict.
    The uprising in Syria is about to enter its third year. 
Over 70,000 Syrians have been killed, there are over 1 million 
registered refugees, 2\1/2\ million internally displaced 
persons.
    Our partners in the region, Turkey and Jordan, are 
sheltering nearly 200,000 and 400,000 refugees respectively. 
International aid to refugees has been slow to reach countries 
in need of support. In fact, of the $1\1/2\ billion of refugee 
aid pledged at the Kuwait Donors Conference held in January, 
only 20 percent has been distributed. We have to do more to 
insure that our humanitarian aid is reaching those critical 
populations.
    We can no longer look at Syria as a self-contained 
conflict. The implications on regional stability are too great. 
As the fighting rages on, the potential for spillover into the 
Golan Heights or into Lebanon is great. As 300,000 refugees 
seek refuge in Lebanon, there are Hezbollah fighters on the 
ground fighting alongside Assad's forces. Iranian arms flow 
through Syria to Hezbollah.
    Assad is Iran's closest ally. Iranian Revolutionary Guard 
members are on the ground in Syria providing training to Syrian 
forces and raising militias in Assad strongholds. The Iranian 
regime is providing telecommunications equipment, arms, and 
money to Assad. The collapse of the Assad regime would deal a 
devastating blow to Iran and its ability to support Hezbollah 
and other terrorist groups in the region.
    I'm extremely concerned about reports that Iraq is turning 
a blind eye to the Iranian's use of Iraqi airspace to transport 
weapons to Assad. This inaction is simply unacceptable. In 
fact, I'll be sending a letter to Prime Minister Maliki this 
week urging him to immediately ground and inspect Iranian cargo 
and civilian planes attempting to access Iraqi airspace.
    For the sake of regional stability, we and our partners 
must cooperate with urgency in order to bring this conflict to 
an end. So, the obvious question remains what more should or 
can we do?
    Secretary Kerry's announcement of direct humanitarian aid 
to the Opposition was a positive step. We need to engage with 
the opposition. The people of Syria need to know that they have 
the support of the United States.
    We know that Saudi Arabia and Qatar are providing 
substantial resources to the opposition. Our European allies 
led by France and Great Britain are considering ways to get 
around the EU arms embargo and provide lethal assistance to the 
opposition.
    The arguments for arming the opposition are compelling. It 
could shift the balance of power and it provides the U.S. 
influence with those who may eventually govern a new Syria, but 
what are the chances of success if we don't provide assistance? 
And is the potential outcome worse for U.S. security and 
security in the region if we fail to act?
    When Assad falls, and it is only a question of when, we 
have to insure that our security interest will be protected. 
This means a commitment from any new government that chemical 
weapons will be secured and will be destroyed. So, as the 
discussion inevitably shifts toward whether or not the U.S. 
should provide lethal assistance to the opposition, it is our 
responsibility to determine whether this can be done in a way 
that insures that U.S. arms will not fall into the hands of 
terrorist organizations.
    Our ability to vet opposition groups could be seriously 
improved if Syrian Opposition Coalition leaders can form a 
strong chain of command, and can unite the various groups 
fighting across the country.
    I'm encouraged that the Syrian Opposition Coalition chose a 
Prime Minister for its exile government yesterday, but time is 
of the essence in translating this leadership to ground 
operations.
    There are difficult decisions that must be made in the days 
and weeks ahead. Do we encourage the Syrian Opposition to 
establish an alternative government on Syrian territory? Do we 
continue to push for a U.N. Security Council resolution? Do we 
provide military advisors and training? Do we provide direct 
military assistance; and, if so, what kind? And, ultimately, is 
it realistic to believe that Assad can be pushed to accept any 
negotiated end to this conflict?
    The unconfirmed use of chemical weapons makes this more 
pressing. The use of chemical weapons by this regime would be 
horrific, but 70,000 slaughtered Syrians is horrific. The 
discussions that we have in this committee are interesting, but 
the fact that this is hard cannot stop us from acting.
    Ambassador Ford, you and your colleagues know better than 
anyone, there are no easy answers. Inaction, however, simply if 
not an option. I look forward to your testimony and I yield 
back. Thank you, Mr. Chairman.
    Chairman Royce. Thank you, Mr. Deutch. We'll yield 3 
minutes to the chairman of the Middle East Subcommittee, Ileana 
Ros-Lehtinen.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman, for 
holding this timely hearing as the 2-year anniversary of the 
Syrian conflict just passed.
    After years of violence and internal struggle, the fighting 
in Syria continues, and the refugee crisis threatens the 
stability of our allies in the region. With over 70,000 dead 
and over 1 million refugees, the numbers continue to rise as 
there is no clear end in sight.
    What started as a popular uprising where Syrians took to 
the streets in protest against the Assad regime's corruption, 
human rights abuses and brutality has turned into a full-scale 
sectarian conflict that pits the Assad regime against Islamists 
who seek to establish an Islamic state in the wake of Assad's 
removal.
    The secular moderate elements have been forced to a 
periphery, and their movement has been co-opted by the 
extremists. That is why the United States must take and must 
take with extreme caution any action that deals with opposition 
forces in Syria.
    While I respect the opinion of my colleagues, I sincerely 
do not believe that it is time for the U.S. to arm the rebels. 
Too many questions remain about who the rebels are, and with 
whom they will swear allegiance. The unknown can be dangerous 
and the vetting of the opposition is not enough when it comes 
to providing lethal aid that could be used against our allies, 
such as Israel, or even the United States in a post-Assad era.
    I'm also deeply concerned about Assad's stockpile of WMDs 
that were they to fall into the wrong hands could jeopardize 
the entire Middle East region, as well as our own U.S. national 
security. We must examine also those regimes that continue to 
help Assad stay afloat.
    Last week the Director of National Intelligence testified 
that,

        ``North Korea's export of ballistic missiles and 
        associated materials to several countries, including 
        Iran and Syria, and its assistance to Syria's 
        construction of a nuclear reactor destroyed in 2007 
        illustrate the reach of its proliferation activities.''

    To address this national security threat, Congressman Brad 
Sherman and I introduced the Iran, North Korea, and Syria Non-
Proliferation Accountability Act, and this bipartisan bill 
prohibits assistance to any government that has provided 
assistance to Iran, North Korea, or Syria, or has failed to 
prevent individuals or entities under its sovereignty from 
aiding in the proliferation activities of those three states. 
We welcome cosponsors to our legislation. Thank you so much, 
Mr. Chairman.
    Chairman Royce. Thank you. Let me introduce our panel here, 
representatives from the State Department and the United States 
Agency for International Development.
    Ambassador Robert Ford is the American Ambassador to Syria. 
In his 27-year Foreign Service tenure, he has served as 
Ambassador to Algeria and as the Deputy Chief of Mission at the 
U.S. Embassy in Baghdad.
    Ms. Anne Richard serves as the Assistant Secretary for the 
Bureau for Population Refugees and Migration at the State 
Department. Prior to her appointment, Ms. Richard worked for 
the International Rescue Committee, an agency committed to 
refugees and internally displaced persons.
    Nancy Lindborg is the Assistant Administrator for the 
Bureau for Democracy Conflict and Humanitarian Assistance for 
USAID. Before joining USAID, she was president of Mercy Corps.
    So, we welcome all of our distinguished witnesses here 
today, and without objection, the witnesses' full testimony, 
your full prepared statements will be made part of the record. 
Members may have 5 days to submit statements and questions for 
the record. And to our witnesses, I'd just ask you to summarize 
your testimony within those 5 minutes. We'll begin with 
Ambassador Ford.

STATEMENT OF THE HONORABLE ROBERT S. FORD, AMERICAN AMBASSADOR 
                            TO SYRIA

    Ambassador Ford. Good morning, Mr. Chairman, members of the 
committee. Thank you very much for inviting me to come talk 
with you today. I know our time is limited so I'm going to keep 
my remarks quite brief.
    As you noted, Mr. Chairman, what started out as a peaceful 
demand for dignity and freedom has turned, instead, into a 
devastating conflict with a horrific human toll. Syrians face a 
new level of ruthlessness from the Assad regime, which is 
raining Scud missiles down on residential neighborhoods, 
bombing hospitals, bombing schools, and sending out its thugs 
into streets to terrorize and arrest fellow citizens.
    More than 70,000 Syrians now have died since the beginning 
of this conflict, and the number is rising, especially as 
fighting in Damascus and Southern Syria now is intensifying. 
More than 1 million Syrians have left their homes in their 
country to seek refuge in neighboring countries, a number which 
could quadruple by the end of this year if the increase in 
refugee flows continues. It's very striking that Jordan's 
fourth largest city now is the Zaatari refugee camp.
    We are working to alleviate the human suffering. The United 
States is the largest bilateral humanitarian aid donor, and my 
colleagues, Anne and Nancy, can tell you more about our 
humanitarian assistance efforts. So, let me talk, instead, 
about how this can end.
    Beyond addressing humanitarian needs, the United States is 
acting. The United States is helping Syrians who seek a 
government that will respect the dignity and the rights of all 
Syrians and that will foster, not threaten, stability in the 
Middle East.
    Since December 2012, the United States along with our 
international partners have recognized the Syrian Opposition 
Coalition as the legitimate representative of the Syrian 
people. The Coalition has a diverse group of representatives 
inside Syria as well as outside, and the Coalition is committed 
to a democratic and inclusive government, free from the 
influence of violent extremists. And now it needs help 
providing basic services in liberated areas.
    Secretary Kerry in Rome at the end of February announced a 
new assistance package of $63 million to help the Syrian 
Opposition Coalition, to help Syrians on the ground inside 
Syria, and to provide food and medical supplies to the Supreme 
Military Command of the Free Syrian Army, and to the Syrian 
Opposition Council for those in need.
    Our aid, along with that of our partners is very important, 
especially to forestall the complete collapse of state 
institutions. This is a point which Secretary Kerry has 
emphasized repeatedly. But, ultimately, we perceive that a 
negotiated political transition is the best long-term solution 
to the Syrian crisis.
    The Geneva Communique agreed upon by the permanent members 
of the United Nations Security Council, Turkey, the Arab League 
States calls for a transition governing body to be set up with 
full executive powers, and this is important, formed on the 
basis of mutual consent between the Opposition and the Syrian 
regime. We cannot see how Bashar al-Assad and his circle who 
long ago lost their legitimacy, and whom the Opposition will 
never accept in a transition government, we cannot see how he 
and his circle can play any role in that transition governing 
body. He must step aside.
    We need to get to negotiations to establish that transition 
governing body, but it is not easy, and how are we to get 
there? As Secretary Kerry has noted, we need to change Bashar 
al-Assad's calculations because he still thinks he can win 
militarily.
    Therefore, we are working with our partners to strengthen 
the Opposition and to change the balance on the ground to help 
give the Opposition the leverage they need to negotiate and to 
change Bashar's calculations.
    Let me note here that the election of Ghassan Hitto as 
Prime Minister for the Coalition is a step forward, and we look 
forward to working with him and with the Opposition Coalition 
President, Muaz al-Khatib in the weeks ahead. And let me also 
say that we look forward to working with the Congress as we 
seek to support the needs of the Syrian people in their 
struggle to create a free, stable, and democratic Syria. Thank 
you.
    [The prepared statement of Ambassador Ford follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              


     STATEMENT OF THE HONORABLE ANNE C. RICHARD, ASSISTANT 
SECRETARY, BUREAU FOR POPULATION, REFUGEES, AND MIGRATION, U.S. 
                      DEPARTMENT OF STATE

    Ms. Richard. Good morning, Chairman Royce, Ranking Members, 
and Mr. Deutch, and members of this committee. Thank you for 
hosting this hearing today on the humanitarian crisis inside 
Syria.
    I am pleased to be able to appear before the committee with 
my colleague, Ambassador Robert Ford, and USAID Assistant 
Administrator, Nancy Lindborg. Our offices work closely 
together to provide humanitarian aid to those affected by the 
violence in Syria.
    The 2-year anniversary of the Syria uprising coincides with 
another dark milestone. Over 1 million refugees have fled 
Syria. More troubling, half of that number arrived in the last 
2 months.
    I would like to share with you the approach the Bureau for 
Population, Refugees, and Migration is taking to address the 
crisis, and how that complements and reinforces what USAID 
does. In my written testimony, I describe how the refugee 
crisis is affecting the neighboring countries, and I won't go 
into those details here, but invite questions from you on the 
very different situations we have seen in Jordan, Lebanon, 
Turkey, and Iraq.
    Let me just say that we recognize the huge strain that the 
influx of refugees is currently placing on host countries. It 
is essential that neighboring countries continue to keep their 
borders open for those refugees fleeing violence in Syria.
    In every meeting with officials from these countries we 
thank them for allowing refugees to cross and discuss ways to 
help them uphold humanitarian principles while protecting their 
own security, and preventing a spillover of violence.
    The Bureau of Population, Refugees, and Migration works 
closely with our colleagues at USAID, and together we lead the 
U.S. Government's humanitarian response. Nancy Lindborg and I 
have traveled often to the region, traveled together twice, and 
on our most recent trip were also joined by Ambassador Ford in 
Turkey prior to our participation at the January Kuwait Donors 
Conference.
    The State Department is helping to get as much humanitarian 
aid as possible to Syria's conflict victims. We are providing 
funding to the United Nations, the International Committee of 
the Red Cross, and non-governmental organizations. These aid 
agencies bring technical expertise and operational capacity to 
respond to a crisis as large-scale as this. Of the nearly $385 
million provided thus far, the State Department's contribution 
total nearly $185 million and meet basic humanitarian needs 
such as shelter, water, and health both inside Syria, and in 
host countries.
    The delivery of assistance is often undertaken at great 
personal risk. In recent months, U.N. convoys have delivered 
aid to Opposition-held areas in Syria where thousands are in 
acute need of humanitarian help. Such movements are highly 
dangerous.
    Of course, people in need are not concentrated in one area 
and can be found all around the shifting battle lines. 
Humanitarian organizations provide aid in a neutral and 
impartial manner. The United Nations is seeking to get access 
to all communities in need on a regular basis. It is 
unacceptable and a violation of humanitarian principles for the 
Syrian regime to deny this access.
    I should mention that the fighting has also endangered the 
lives of Palestinians and Iraqi refugees who lived in Syria. 
They, too, are caught up in this crisis and have been 
displaced, or have fled the country.
    I regret to tell you that even as the crisis explodes, the 
international community is facing a resource problem. The 
U.N.'s Regional Response Plan has thus far received only 21 
percent of the funds it needs to operate for the first half of 
2013. Other donors must quickly provide the funds that agencies 
need to keep lifesaving operations going.
    And even if the Assad regime falls soon, humanitarian aid 
will likely continue. This is because of the widespread 
destruction of Syria's infrastructure and predicted flows of 
refugees that would continue to cross borders--likely in both 
directions. Needs could extend into the long term.
    I've got my work cut out for me in terms of convincing 
other countries to give more, in setting the record straight 
about the heroic efforts of aid workers inside Syria, in 
pressing international aid agencies to do as much as they can, 
wherever they can.
    I am encouraging U.N. leaders to take on more risks and 
push the envelope to get aid into those hard to access parts of 
Syria where the needs are great. And we are formally requesting 
that they plan for every conceivable contingency since this 
crisis has already defied predictions about its likely scale 
and scope.
    We are asking neighboring countries to keep their borders 
open despite political tensions and economic burdens within 
their own countries, to work with us to insure international 
aid reaches the Syrians, and to help us uphold international 
standards in order to protect and aid refugees.
    In conclusion, Mr. Chairman, my Bureau's primary concerns 
are providing protection and assistance to those who have fled 
the violence. The State Department's overall goal, of course, 
is a return of peace and stability to Syria, and to one day see 
the refugees return home. And I'll be happy to answer your 
questions at the appropriate time.
    [The prepared statement of Ms. Richard follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              


    STATEMENT OF THE HONORABLE NANCY E. LINDBORG, ASSISTANT 
ADMINISTRATOR, BUREAU FOR DEMOCRACY, CONFLICT AND HUMANITARIAN 
 ASSISTANCE, UNITED STATES AGENCY FOR INTERNATIONAL DEVELOPMENT

    Ms. Lindborg. Chairman Royce, members of the committee, 
thank you very much for having us here today.
    We are 2 years into this conflict, and we are in the midst 
of a grim and escalating humanitarian crisis. We've heard the 
grim statistics; behind each of these statistics are profound 
stories of loss and particular impact on the women and children 
who are always the most affected by conflict.
    We heard these stories in January when the three of us 
traveled to the region, and it really hits home how profoundly 
brutal this war is when you stand at the border of Syria and 
Jordan at night and literally watch thousands of families walk 
across that border, mainly women and children.
    I want to just cover a few key points today. First, our 
humanitarian mandate is one of the most important expressions 
of who we are as Americans, and the U.S. Government is helping 
those in need throughout Syria. Since the conflict began 2 
years ago, our aid has been a lifeline to more than 2.4 million 
people, including those in areas affected by the worst 
violence, in Idlib, in Aleppo, in Daraa.
    We are working through all channels, through the United 
States, international organizations, NGOs, local Syrian groups 
and networks to reach all who are in need throughout Syria. We 
are working closely with the Syrian Opposition Coalition's 
Assistance Coordination Unit or ACU, which is now playing a 
vital role in coordinating international aid going into Syria. 
USAID has a full-time liaison working with the ACU to build 
that relationship, to share information, coordinate the 
assistance, and help the ACU have greater capacity to do more.
    Our assistance is reaching all 14 Governorates and 
approximately 60 percent of our aid is reaching those in 
contested and Opposition-held areas. We've prioritized food, 
basic medical, and trauma care relief supplies. In Aleppo 
Governorate 50 bakeries were reopened with enough flour from 
USAID to bake daily bread for 210,000, and working with a cadre 
of very brave doctors, mainly Syrians, we're supporting 144 
hospitals, health clinics, and mobile units who are providing 
essential care, and especially looking at the needs of women 
and children who are affected by this conflict.
    My second point is that all of this is not enough. The 
growing crisis is outpacing the international response 
capacity. We have a problem of access. The single greatest 
factor limiting humanitarian aid is that we need more access 
across battle lines; we need cross-border access. We are simply 
not able to reach everyone in need.
    There are not enough resources. Simply put, there is not 
enough money to reach the scale of this need. We continue to 
urge all countries to follow through on the generous 
commitments they made at the Pledging Conference in Kuwait in 
late January. It is imperative for all countries to step 
forward to share the burden. We invite you to add your voices 
to that call.
    Security is a constant concern. Every day I get reports of 
humanitarian aid workers who have been kidnapped, targeted, and 
clinics and bakeries bombed. Just last month, three USAID-
funded medical clinics were bombarded, one was destroyed by a 
mortar shell, 10 people were killed. So, to protect our 
humanitarian partners, to insure the aid can continue and reach 
those in need, we are not branding much of our assistance, 
which goes to my third point.
    We are working hard to insure that the Syrian people know 
the United States is the largest donor, and that the American 
people are standing by them in this hour of need. We're working 
with our partners to find ways to safely and selectively brand, 
when they can, in one of the most dangerous and complex 
humanitarian environments on earth right now. They are engaging 
intensively with local leaders at every level to make sure they 
understand where the aid is coming from. We're amplifying our 
support through official visits to the region, intensive 
regional media engagement, and making a full government-wide 
push to communicate directly to the Syrians. This hearing today 
is a wonderful opportunity to further that message. So, again, 
our thanks.
    My fourth and final point is that in addition to 
humanitarian assistance, as Ambassador Ford has detailed, the 
U.S. is investing in Syria's transition to help the Syrian 
Opposition deliver. We recognize they need to deliver on 
meeting Syrian needs now, so we are working with them through 
offices like the Office of Transition Initiatives to identify 
priority projects both immediate and longer term that can help 
the Syrians.
    Our continued assistance and support for the Syrian people 
is a vital investment in the stability of a region that's at 
the heart of our U.S. national security interests, and our 
humanitarian help is a crucial expression of our American 
values and our solidarity with the Syrians at this tragic time.
    We know our humanitarian assistance will not end the 
bloodshed but it is saving millions of lives, and preventing a 
tragic situation from becoming worse. Thank you.
    [The prepared statement of Ms. Lindborg follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Chairman Royce. Thank you very much, Ms. Lindborg.
    I want to ask a question of Ambassador Ford, and it goes to 
the Director of National Intelligence's comments here to 
Congress quite recently. He said, ``An increasingly beleaguered 
Syrian regime might be prepared to use chemical weapons against 
the Syrian people.''
    I'd note that, you know, many of us doubt that the Syrian 
Government would risk triggering foreign interference by 
deploying chemical weapons, but there are reports yesterday of 
chemical weapons use, as you have seen. And I was going to ask 
you, Ambassador, what could you tell us on that?
    Ambassador Ford. Mr. Chairman, so far we have no evidence 
to substantiate the reports that chemical weapons were used 
yesterday, but I want to underline that we are looking very 
carefully at these reports. We are consulting with partners in 
the region and in the international community.
    More broadly, we have been very clear from the beginning 
about our concern that as the Assad regime's military situation 
deteriorates, and it becomes as the Director of National 
Intelligence said, it becomes ever more beleaguered, that it 
might be tempted to use chemical weapons. And the President has 
been very clear in saying that if Assad and those under his 
command make the mistake of using chemical weapons, or if they 
fail to meet their obligation to secure them, then there will 
be consequences, and they will be held accountable.
    Chairman Royce. What would those consequences be, 
Ambassador?
    Ambassador Ford. Mr. Chairman, in a hearing like this, I 
absolutely do not want to go into hypotheticals. I do want to 
underline that we take these reports and these possibilities 
very seriously, and we are using all of our available means to 
determine exactly what has happened.
    Chairman Royce. Let me raise another point, and that is to 
the transfer of weapons going through Iraq, either over 
airspace, or by land into Syria. Last week we had a report in 
Reuters that the Iranian regime was increasing its assistance 
to the Assad regime. And, clearly, the observation has been 
that this is the lifeline. It's not just the foreign fighters, 
but it's also the munitions that are being flown in, and it's 
being flown in by civilian aircraft. Personnel are flying in, 
by the way, through airspace, as well as the weapons, so we see 
that, we see at the same time Hezbollah on the ground now in 
Syria.
    This has been raised, as I understand it, several times 
with the government in Iraq, but still the government there is 
ramping this up. If we really grasped the strategic opportunity 
here, it seems like one of the easiest things we could do would 
be to lean on the Iraqis and get this process halted.
    So, I was going to ask, how hard has the administration 
weighed in with the Iraqis? What has been tried to get them to 
cease and desist? And how might Congress help make this job a 
little easier for the administration, if that's what's 
necessary here?
    Ambassador Ford. Mr. Chairman, thank you for that.
    A couple of things I'd like to note first. The Iranian 
relationship to the Bashar al-Assad regime is not new, but as 
you noted, their assistance to the regime in this conflict has 
grown substantially.
    I could just cite, for example, that the Iranian 
Revolutionary Guard Corps lost a general in Syria. And they 
have lost other personnel, as well. And, of course, I don't 
want to fail to mention that Lebanese Hezbollah is also playing 
a very pernicious role. And there are even reports we are 
seeing now, Mr. Chairman, of Iraqi Shia extremists going to 
places like the Sayyida Zainab neighborhood of Damascus, and 
even up to Homs. So, this is a serious problem, and it is 
absolutely prolonging the conflict.
    We have raised on multiple occasions with Iraqi officials, 
and I have done so myself when I visited Baghdad at the end of 
last year. We had a senior Iraqi official here in Washington 2 
weeks ago, and we raise it during visits here in Washington, 
and as well out in Baghdad. We will keep pressing the Iraqis.
    We want the Iraqi Government to understand that it has no 
interest in having an extremist government in Syria, and the 
longer the conflict continues, the greater the influence of 
extremists on the ground. Iraq should be working with us to get 
to that negotiated settlement that I talked about.
    Chairman Royce. You know, it seems to me that with our 
capacity to put pressure on other governments with respect to 
trying to bring change in Syria, we are certainly missing an 
opportunity here given that the flow of these fighters are over 
Iraqi territory, and they are not assisting. We're missing the 
opportunity in terms of a direct conversation about the 
security assistance we've provided, and the means whereby we 
could frankly force Iraq to at least be part of the solution, 
rather than part of the problem here.
    Again, can you think of anything definitive that has been 
shared with the Iraqis on that front?
    Ambassador Ford. Mr. Chairman, let me assure you we have 
had very direct conversations with the Iraqis. I have, our 
Ambassador in Baghdad, Stephen Beecroft, has, and officials 
here in Washington, the White House and the State Department 
have. As I mentioned, we had a senior official here from 
Baghdad the week before last, and we have been very direct with 
them about the importance of not allowing Iran to exploit the 
crisis in Syria, and how it is not helpful to Iraqi interests, 
nor the region's interests.
    Chairman Royce. Thank you. Mr. Deutch.
    Mr. Deutch. Thank you, Mr. Chairman. I'll just follow-up on 
this line of questions.
    You've pressed the Iraqis, you've been direct with the 
Iraqis. The fact is that the transfer of Iranian arms is 
subject to U.N. embargo. There is so much at stake here. Let me 
try this a different way.
    What specific leverage might the United States employ in 
those direct discussions that are taking place with the Iraqis?
    Ambassador Ford. Congressman, I don't want to go into great 
detail here about our diplomatic discussions with the Iraqis, 
but you mentioned the arms embargo and the United Nations 
resolution, and we have discussed that with the Iraqis.
    In a sense, in the end what matters is that the Government 
of Iraq understand that its own interest is going to be best 
served not by facilitating Iranian efforts to prolong the 
crisis in Syria, but rather in bringing about a transitional 
government that would have good relations with the government 
in Iraq.
    Mr. Deutch. Understanding by the Iraqi Government would be 
helpful. Action by the Iraqi Government is what's necessary to 
insure that that actually takes place.
    I'd just like to focus on the two kinds of aid that are 
widely discussed. One is, obviously, military.
    Ambassador Ford, there's a difference of opinion here on 
Capitol Hill about whether or not to provide direct military 
assistance to the Opposition. The argument is made that it's 
really hard to know where these weapons are going, that they 
might wind up in the wrong hands, and that as we assess this, 
it's just too difficult for us, ultimately, to be able to 
decide how to get this into the right Opposition group's hands.
    Do you agree with that, and the fact that it's hard? Does 
70,000 now dead Syrians, does that make it easier for us to 
assess the possibility of doing this?
    Ambassador Ford. Congressman, first let me say that all of 
us working on the Syrian issue are incredibly saddened by the 
human toll in Syria. I was there, and I visited the people in 
Hama, and they were certainly peaceful. What's happened to them 
is atrocious; what's happened to other Syrians is atrocious.
    With respect to direct military assistance, our policy now 
is not to provide military assistance to the Supreme Military 
Council and the Free Syrian Army. We do regularly review this, 
be very clear about that, but our policy is not now to provide 
such assistance. We are, above all, focused in our efforts in 
convincing both sides of the importance of a political solution 
and getting them to that negotiated political deal.
    We have taken a major step in terms of our relations with 
the Supreme Military Command of the Free Syrian Army by now for 
the first time providing food and medical assistance to it for 
those in Syria in need, but we are not providing direct 
military assistance.
    Mr. Deutch. Mr. Ambassador, I understand that, and I'm not 
suggesting an immediate change. I'm suggesting that this is an 
important conversation for us to have, and it needs to take 
place right now.
    I'm asking if you agree that it is too difficult for us to 
identify who should receive those arms if the policy were to 
change.
    Ambassador Ford. Congressman, as we review whether or not 
to provide direct military assistance, we do it within the 
context of trying to decide if it would help us get to the 
political settlement that we think is the only way to get to 
the long-term crisis. So, the question you asked is one 
question, but it is not the only question that we take into 
consideration.
    Mr. Deutch. I appreciate that. Let me just turn to Ms. 
Lindborg for a second in my remaining time.
    Ms. Lindborg, I want to thank you. I want to thank you for 
the work that you do. I want to thank you for the work that 
USAID does.
    At the end of your testimony, you commented this hearing is 
a wonderful opportunity for you to further your message. I hope 
that people will focus on your message. I hope that in all of 
the discussions that take place here about whether or not to 
provide military assistance, and working with the Opposition, 
and doing all the things that we need to, to ultimately push 
Assad out, that there is a very clear understanding about the 
work that you and the agency does every single day, the work 
that you do every day to address this humanitarian crisis. And, 
most importantly, your efforts as you describe them, to make 
sure that the Syrian people understand that even as we have all 
of these other discussions, that the United States of America 
is committed to working to address this humanitarian crisis in 
a very serious, and in a very concerted way.
    I want to pass on my sincere thanks, and I hope that you 
and the work gets the attention that it deserves perhaps as a 
result of this hearing. Thank you, and I yield back.
    Chairman Royce. Thank you. Ileana Ros-Lehtinen.
    Ms. Ros-Lehtinen. Thank you very much, Mr. Chairman. And 
thank you to all of the panelists.
    I wanted to ask three questions, first on the rebels, who 
are these guys? WMD, and thirdly, on the countries that are 
aiding Assad, Russia, Iran, North Korea among them. On the 
rebels, the Syrian rebels lack a cohesive command and control 
structure, and they continue to expand their operations, but to 
what end? Ambassador Ford, do you believe that there's great 
cohesion in the Opposition forces? And, if so, will that stick.
    In the last few months, some Syrian rebels have been 
designated as foreign terrorist organizations linked to al-
Qaeda. They've captured and detained U.N. peacekeepers after 
later being released, so the U.S. must take necessary 
precautions to conduct proper oversight and due diligence 
regarding any aid to these rebels.
    Can you give us more information about the Opposition? 
They're not just Syrian Nationals, as you point out. You said 
that they're foreign fighters who also have Islamic militants 
from neighboring countries, so who will govern in a post-Assad 
Syria?
    And on weapons of mass destruction, are the reports correct 
that the Syrian regime may possess up to 50 tons of weapons-
grade nuclear materials in its stockpile? And to inspect, if 
those reports are true, will the U.S. call for an emergency 
meeting of the International Atomic Energy Agency to discuss 
this? And if Assad does not grant IAEA inspectors immediate 
access to all nuclear facilities and stockpiles so that they 
can be protected and sealed, will the U.S. impose immediate 
comprehensive and painful sanctions? Will we do so acting with 
the European Union? Will we do so only through the U.N. 
Security Council?
    And, lastly, on the countries that are aiding the brutality 
of Assad's regime, these countries continue to provide military 
assistance, weaponry. These are North Korea, Russia, Iran, and 
they seek to further the illegal weapons program and supporting 
these foreign terrorist organizations.
    What can we do to hold these regimes accountable for 
supplying the Syrian regime with arms, helicopters, military 
equipment during this human rights crisis? In light of Russia's 
policy in Syria, I believe that the Obama administration's 
string of concessions to Moscow must stop, and I wanted to hear 
your thoughts on the rebels, WMD, and what will we do with 
countries that are helping Syria?
    Ambassador Ford. With respect to the rebels and who they 
are, I divide them into two categories. There's a political 
opposition, and there is a military opposition. Both are not 
entirely unified; although, on the political side the Coalition 
headed by Sheik Muaz al-Khatib, the Coalition that chose 
Ghassan Hitto yesterday as Prime Minister, are becoming more 
and more unified. And they have representatives from both 
inside the country, as well as outside the country.
    On the armed opposition side, they have established a 
Supreme Military Command headed by a man named General Salim 
Idris, whom I have met several times. He has said to us and to 
others that he will respect a political deal worked out by the 
political opposition; that is to say, he does not perceive that 
the Free Syrian Army should have a political role in the future 
of Syria.
    To be very frank, Congresswoman, that is one of the reasons 
we decided to provide direct food and medical assistance to 
Idris and his command to help him within the context of the 
broader Syrian opposition.
    Let me add, also, with respect to your question on weapons 
of mass destruction, even when I went out as an Ambassador 
several years ago, this was a huge issue for us. And it has, if 
anything, become even more of a concern given our worries about 
the regime in its desperate military situation using chemical 
weapons. So, let me assure you, we continue to talk regularly 
to the International Atomic Energy Agency in Vienna. We 
continue to urge that the Syrian regime be completely 
transparent with the IAEA about what it has been doing with 
respect to its nuclear program.
    With respect to access, we have long wanted that. We argued 
for it consistently. I think now with the fighting in the area, 
we would have to figure out if the IAEA itself would want to 
go.
    Ms. Ros-Lehtinen. Thank you. And you can address that at 
another time, the other question. Thank you, Mr. Chairman, for 
the time. Thank you, Ambassador.
    Chairman Royce. Thank you. We'll go to David Cicilline.
    Mr. Cicilline. Thank you, Mr. Chairman. And thank you for 
convening this important hearing. Thank you to the witnesses 
for your testimony.
    I have two questions, one for Ambassador Ford. Secretary 
Kerry has said that the policy of the United States is to 
change Assad's calculations so that he will cease the killing, 
and agree to some negotiations, and some cease fire. And I'd 
like your assessment as to whether or not there's any evidence 
that Assad has begun to change his calculation in that 
direction, and whether or not there is a set of individuals 
that the Opposition might be prepared to negotiate with, and 
whether the Geneva Framework makes any sense, or is still 
something that has some prospect for resolution?
    And the second area, I also want to thank Ms. Lindborg for 
the work you and your agency are doing, as Ranking Member 
Deutch referred to. I really hope that people understand the 
value of it, and thank you for your testimony.
    I am particularly interested if you would share with us 
some of the work that's being done to protect Syrian women and 
girls. There have been reports both from a recent U.N. report, 
and the general media about the really devastating consequences 
of this conflict on women and the rape of Syrian women who are 
fleeing Syria to host countries where they're not finding any 
better conditions, and incidences of rape, forced marriage, and 
child marriages and the like. If you could share with us some 
of the work that's being done to protect Syrian girls and 
women, I'd be grateful. Ambassador Ford, we could start with 
you.
    Ambassador Ford. Congressman, with respect to changing 
Bashar al-Assad's calculations, I'm not a psychiatrist, and I 
have seen his press statements where he said he would never 
leave Syria. We've seen that. Maybe he's telling the truth. I 
don't know.
    We also know, Congressman, that the military balance is 
turning against the regime. They lost a provincial capital at 
the end of February, the regime's governor and other senior 
officials were actually captured. They've lost control of the 
border along Turkey and Iraq. There is heavy fighting now in 
Damascus, itself. In fact, we've been getting messages from 
Syrians inside Syria and Damascus that there was heavy fighting 
right up close to where the President lives. Certainly, it 
would have been rattling his windows.
    Will he then decide to negotiate and to save himself? We 
want a negotiated political deal as the best means to get a 
sustainable new government. That has to be, in a sense, agreed 
upon by the different sides to the conflict. That does not mean 
we will ask the Supreme Military Command to implement a cease 
fire, but we would like to see negotiations.
    I was struck that the regime has now offered to send a 
delegation headed by the Syrian Prime Minister, but I don't 
know if that is serious, and it has to be to discuss not a 
Bashar al-Assad reform program, but rather the Geneva Framework 
for a transition government in which Assad has no part.
    Ms. Lindborg. Congressman, thank you very much for your 
question. I will start by just saying when I was there in 
January, I met with a group of young activists, including young 
women who have now had to give up their dreams of being lawyers 
and finishing their college education.
    On International Women's Day, I got a series of text 
messages from them to promote a campaign they had organized 
called ``I am SHE,'' that we had supported, very much focused 
on bringing to attention the special needs of women in 
conflict. This is an issue we take seriously globally.
    In Syria, through the hospitals that we're supporting, 
we've also brought in rape kits, and counselors. It is in the 
immediate aftermath of a sexual assault that it's so important 
to get treatment. We are also working with partners to provide 
special counseling for the many, many children who are affected 
by this, who are traumatized now.
    This has impact for the rest of your life--to go through 
this. Many children are being caught in the crossfire, as are 
the women, and it is brutal.
    And my colleague, Anne, might want to say something about 
the particular plight of women in refugee camps.
    Ms. Richard. We are working with UNHCR in Jordan, and UNFPA 
in Turkey to insure that aid is provided to women and girls who 
have suffered as they fled from Syria. We've heard very 
credible reports that one of the things they're fleeing from is 
the threat or actual rape.
    In the Zaatari refugee camp, we are giving funding to NGOs 
so that they can meet the needs of Syrian women and children. 
So, we take the issue very, very seriously, and thank you for 
raising it.
    Chairman Royce. We'll go now to Mr. Steve Chabot.
    Mr. Chabot. Thank you, Mr. Chairman.
    There was an article which appeared in, I believe, National 
Review recently. It was entitled, ``The Silent Exodus of 
Syria's Christians.'' And it started out 2 million or so, and 
it's to some degree similar to Iraq when there was the war 
taking place there. Christians were being targeted, murder, 
kidnapping, rape, you name it, all kinds of horrific things 
happening. And, of course, there's been a relationship to some 
degree between the regime and some in the Christian community, 
as well, so that clearly exists, and is somewhat of a 
complicating factor, as well.
    There are particular threat from Islamic groups, and my 
question would be what has the administration been doing about 
that, what should we be doing? One quote in the article was, 
``The ethno religious cleansing taking place could soon see 
Syria emptied of Christians,'' for example. And, apparently, it 
hasn't been getting a tremendous amount of coverage in the 
media overall compared to a lot of other things. Ms. Lindborg, 
would you want to touch on that particular issue?
    Ms. Lindborg. Yes. Thank you for your question. I think 
this underscores the fragmentation that's happening in Syria, 
and the ways in which so many particular groups are being 
targeted and threatened.
    We provide humanitarian assistance on the basis of need 
regardless of who you are. We are seeking to get into all the 
14 Governorates. Many of the Christian communities are 
concentrated in what's called the Christian Valley between Homs 
and Tartus, and Aleppo, and we are definitely insuring that 
assistance is getting there through our partners, as well as in 
a few pockets in the suburbs of Damascus.
    This is something that we're definitely watching along with 
all the groups that are particularly vulnerable.
    Mr. Chabot. Thank you. Either one of the other witnesses 
want to touch on this? Ambassador?
    Ambassador Ford. Congressman, a couple of things I would 
like to emphasize. First, I was in Iraq for almost 5 years, and 
I saw what happened to the Iraqi Christian community, and it 
was terrible. Even now, they're still often under threat, those 
who remain. So, I'm very sensitive to that. The administration 
is very, very sensitive to that.
    A couple of things I just want to highlight. First, we are 
deeply concerned about the threat of Islamist extremists within 
the Syrian Opposition. That is why the administration 
designated the al-Nusra Front in December 2012 as an affiliate 
of the al-Qaeda organization in Iraq. And we did that 
specifically to warn others in the Syrian Opposition of the 
risks that they take by working with al-Nusra Front.
    And I'm encouraged, Congressman, that there have been 
instances now where other Syrians who want a tolerant society, 
other Syrians who believe that all Syrians should be treated 
equally without respect to their religion or their ethnicity, 
are starting to push back in some instances against al-Nusra on 
the ground. But there is a great deal of concern.
    Second thing, I just want to assure you, I mentioned I have 
met people from the Free Syrian Army, from the Supreme Military 
Command, and we have highlighted the worries of minority 
groups, Alawites and Christians, not that we are against the 
Sunni Majority of Syria, we are not, but the minorities are 
nervous, and their rights must be protected and respected. And 
we hear good things from them. And I can tell you, for example, 
that they have met Christian leaders from some of the 
communities in Syria, and have told us afterwards that their 
meetings were positive. We have to keep pushing in that 
direction.
    Mr. Chabot. Thank you. In the short time I have left, if 
you could just, Mr. Ambassador, touch on the chemical weapons 
issues. The administration's called it a red line, and there 
have been reports, you know, as recently in the last 24 hours 
about what's actually happening on the ground, whether they 
have been used, whether they will be used. If you could just 
talk about what the administration is doing to prevent the 
transfer of these weapons to groups like Hezbollah, and others? 
Thank you.
    Ambassador Ford. We view this issue with extreme 
seriousness, Congressman. It is incredibly important to us, so 
we approach it on several fronts.
    Right now, we are trying to verify the reports that we have 
seen recently about the use. There are reports of their being 
used both in the North, and in the Damascus suburbs, the 
Eastern suburbs of Damascus. So, we're trying to verify those 
reports with our means. We're talking to our partners about 
what they have been able to find out.
    In addition, we have had regular discussions with other 
countries that have interests in Syria, who have influence with 
the Syrians to (a) urge that the Syrian regime not use these 
weapons and, instead, maintain tight control over them. And (b) 
to pass the warning that there would be consequences, and there 
would be accountability for those members of the regime that 
would ever think of using these things and would deploy them.
    Mr. Chabot. Thank you. Thank you, Mr. Chairman.
    Chairman Royce. We'll go now to Mr. Albio Sires.
    Mr. Sires. Thank you, Mr. Chairman.
    Mr. Ambassador, I listen and I read all the comments 
regarding Syria, and I always read about these key words, that 
we want to negotiate, we want to talk, we want a political 
solution, dialogue is the best way to go.
    My concern is that this man is a criminal now, what he's 
done to his people. So, if you come to a solution where there's 
dialogue, where somehow he says all right, let's talk, 
somewhere along the line he has to be held responsible for what 
he's done to his people, I mean, brought to court. So, I hope 
that in this idea of dialogue and conversation, and those key 
words that I read all the time on all these articles, that 
somewhere along the line he is held responsible for the 
criminal act that he's portrayed on his people.
    Ambassador Ford. Several things on that, Congressman. 
First, we don't say dialogue because for us this is not about 
having a conversation between the Opposition and the regime. 
This is about negotiating----
    Mr. Sires. Well, it's the same thing.
    Ambassador Ford. To me, they're very different meanings, 
and they matter here.
    Mr. Sires. Well, we've got to negotiate him into jail.
    Ambassador Ford. They matter here because we're talking 
about him stepping down, not dialoguing but him stepping down, 
and setting up a new transition governing body.
    Now, with respect to accountability, we have said he should 
be held accountable, and that members of his regime with 
buckets of blood on their hands also should be held 
accountable. We are actually helping train Syrian investigators 
to prepare dossiers. We are showing them--this is ongoing 
activity that we are doing, the State Department's Democracy 
and Human Rights Bureau is undertaking this along with Stephen 
Rapp, our Ambassador-at-Large for War Crimes. We are training 
Syrian investigators so that they can prepare dossiers to be 
used at an eventual court proceeding. The Syrians, themselves, 
ultimately will have to decide by what mechanisms they will 
hold people accountable. That can't be something that we 
dictate to them. But we are anxious to provide them the 
capability to pursue people in this way.
    Mr. Sires. Thank you. Can you talk a little bit about the 
role of Russia? They seem to be coy. I know they're supportive 
and, you know, yesterday I think the Ambassador said that the 
people who first used chemical were the rebels. Can you talk a 
little bit about the usual coyness?
    Ambassador Ford. Congressman, we saw the Russian statement 
that the rebels, Free Syrian Army, yesterday used chemical 
weapons. I just want to say we have no evidence to corroborate 
that, and we're very skeptical of it. We'll look at it, but our 
initial impression is we're very skeptical.
    With respect to the Russian position, they say that they 
are not attached to Bashar al-Assad, and they say they would 
accept a transition governing body. They signed up to the 
Geneva Framework that I have talked about. However, we would 
like Russia to go far, far beyond that.
    We would like Russia, first of all, to stop delivering arms 
systems to the Syrian Government. And this is an ongoing 
conversation that we have with them. We would also like the 
Russians to join the rest of the international community in the 
very tight economic sanctions regime which we have developed 
with the Europeans, with countries in the Middle East, with the 
Japanese and other countries. We would welcome the Russians 
joining that, all with the goal of getting to a sustainable 
political solution.
    Mr. Sires. And can you talk about the issue of branding a 
little bit? It seems that we can't put our name on some of the 
food or whatever material that we deliver to Syria for various 
concerns. How would they know that we are the ones assisting 
them?
    Ambassador Ford. Congressman----
    Mr. Sires. My----
    Ambassador Ford. Sorry.
    Mr. Sires. No, go ahead.
    Ambassador Ford. Congressman, I'm happy to share a little 
bit. I would encourage Assistant Administrator Lindborg to talk 
about this since it's more her people and her programs. But we 
understand the utility of Syrians seeing $385 million in 
American assistance going in to help Syrians in need. We are 
the largest bilateral donor. And there are some places where we 
have been able to do branding, but in other places there are 
security issues. Nancy, do you want to say more?
    Ms. Lindborg. Yes, I would just simply add that we evaluate 
this every day and look at every opportunity to see where we 
can brand safely. Ultimately, we need to provide assistance in 
a way that insures that it gets to the people, and that we are 
able to save lives in this really, really difficult crisis.
    If we do so in a way that further endangers the aid 
workers, it threatens not only our very brave colleagues, but 
it also will shut down the overall enterprise. So, it's a 
delicate balance, and as a result, we're also looking at all 
the other ways to get the word out, all the other ways to 
communicate directly to the Syrian people that the American 
people are standing with them.
    Mr. Sires. Thank you very much. Thank you, Mr. Chairman.
    Chairman Royce. Adam Kinzinger.
    Mr. Kinzinger. Thank you, Mr. Chairman. And thank you all 
for coming and being here.
    Mr. Ambassador, I understand that you are not the 
President, but you've probably been in some conversations that 
I haven't. One of the reasons this hearing is so important is 
because I can kind of take you on a journey right now. I want 
to ask you to go on that journey with me. This journey is 
trying to figure out what our foreign policy is, because I've 
had a very hard time doing that.
    I've been stumped. I'm stumped on the answer in Syria, I'll 
be honest. I don't know what the answer is, and part of the 
reason is that we've waited so long to really do anything.
    To an extent, it reminds me of how we were reactive in Iran 
in 2009 when we saw a really good opportunity to support a 
popular uprising against the regime. So, we find ourselves in a 
situation now where I feel, maybe I'm wrong, but I feel like 
we're reacting to the situation. And I wonder, if we go back to 
the beginning of this conflict, we go back to the initial 
uprising against Assad, where you have Iran basically 
supporting the Syrian regime on one end, and you have 
theoretically Freedom Fighters on the other end.
    Now, I understand that we didn't know at that time who the 
rebels were, and there were some questions. But, at that time 
you can pretty much assume that extremism did not have the 
ability to organize to the great extent that they're probably 
organized now, which gives us the concern in the Opposition on 
what we have.
    So at the beginning, and I'm asking you because you were 
hopefully in these conversations, what were our reasons for not 
supporting an uprising with lethal aid, or non-lethal aid 
against a regime that is supported by Iran, and continues to 
cause problems in the Middle East? And I'll ask you to keep it 
short because I actually have a lot here I want to ask, so go 
ahead.
    Ambassador Ford. To be very brief, Congressman, I 
personally don't agree that we waited so long, on the ground 
there. We were helping democracy activists when I was in Syria 
in 2011, and we were doing a lot to help.
    Mr. Kinzinger. What was the reason for withholding lethal 
aid at that time?
    Ambassador Ford. Congressman, for a long time, Syrians 
themselves didn't want outside interference in their uprising, 
what they called the revolution. For a long time, through 2011, 
the Syrians themselves wanted their demonstrations to be 
peaceful. They did not want foreign armed intervention. In 
fact, they were bitterly criticizing Hezbollah and Iran for 
their intervention.
    Mr. Kinzinger. Respectfully, I understand that. I'm talking 
about when it went to a shooting war. And again, as I'm saying 
this, I am literally trying to figure this out because I don't 
know the answer today. This is a difficult quandary.
    Let me ask another question. When we talk about the red 
line, and we talk about the use of chemical weapons, I know 
this has been hammered especially by the chairman, but we're 
going to find out what happened. It's just a matter of time. 
We're going to find out if chemical weapons were used, and who 
used them. I feel like we have a red line that is supposed to 
be exactly that: A red line; a point you don't cross. I heard 
what I assume the President was saying is that if you use 
chemical weapons, that is the red line. Now, I hear that there 
is a kind of a shifting red line to no, no, no, we're talking 
about the transfer of chemical weapons, and not necessarily 
using them against your own people. So, it seems more like a 
cyan line, or a yellow line.
    I think in my mind, a red line is to make it very clear; if 
you use chemical weapons against your own people, we will 
devastate your ability to use chemical weapons. The result of 
that will be a deep, deep thinking about whether we'll use 
chemical weapons against our own people, because we know our 
ability to do so will be devastated.
    Let me ask you just one or two more questions. How does 
Russia and Iran specifically see our policy in Syria? Are they 
frightened of our involvement of Syria because it will affect 
their interest, or are they happy with our situation in Syria 
right now, and the approach we're taking, Mr. Ambassador?
    Ambassador Ford. Congressman, I'm not the spokesman for the 
Russian or Iranian Foreign Ministry----
    Mr. Kinzinger. Well, you probably have a gut feeling.
    Ambassador Ford. Let me just say a couple of things. First, 
the very nature of the Iranian actions in Syria now suggest to 
me that they're very nervous about the Assad regime's long-term 
prospects. They are plussing up their assistance, they're 
plussing up their people on the ground, they're plussing up 
what they're sending in. That doesn't sound like a confident 
stance, to me. That sounds like they're nervous, and they ought 
to be nervous.
    I mentioned before about how the military balance has 
shifted strongly against the regime in a war of attrition.
    Mr. Kinzinger. But, is it a nervousness because of the 
situation on the ground, or because of specifically what we're 
doing? I'm asking, are we helping that nervousness, or are we 
just kind of not?
    Ambassador Ford. Absolutely, we help that nervousness, 
Congressman. Let me give you an example. You know, a lot of 
this war is being fought on video.
    Mr. Kinzinger. Right.
    Ambassador Ford. And much of the equipment that provides 
the YouTube videos that you and I see, that actually comes from 
us.
    Mr. Kinzinger. Good.
    Ambassador Ford. We are the ones that are helping the 
Opposition both get information from the outside world through 
the internet, and also to upload stuff back to the rest of 
planet Earth.
    For example, the chairman in his opening remarks talked 
about the devastation to the City of Homs.
    Mr. Kinzinger. Right.
    Ambassador Ford. We have worked very closely with the Homs 
Provincial Revolution Council to make sure they can stay in 
touch with planet Earth.
    Mr. Kinzinger. Thank you. And again, I do appreciate your 
service. One thing that I want to add though, as I close, is 
that I hope that this is not an extension of what was made 
famous a few years ago, the lead from behind strategy. I think 
when America retreats from the world, chaos ensues. So, I hope 
this is not an extension of that. I'm not saying it is, but 
that's something I wanted to say.
    Thank you all for your service, and I yield back.
    Chairman Royce. Bradley Schneider.
    Mr. Schneider. Thank you, Mr. Chairman. And thank you to 
the witnesses for joining us here today.
    Ambassador Ford, I'll to you again, initially. As you 
stated, our goals currently are to see the Assad regime leave 
as soon as possible, to have a negotiated settlement, retaining 
Syria's national unity, and fostering an emergence of a new 
Syrian Government that enhances, rather than lessens the 
security within Syria and around the region.
    As we look at that, and we're developing our strategy, what 
events, trends, or other developments might be indications that 
our desired or stated objectives aren't achievable? And if we 
start to see those, what are our best alternatives if national 
unity isn't achievable?
    Ambassador Ford. We worry, Congressman, about the collapse 
of the state. And I don't mean the government of Bashar al-
Assad, we think he's going to go in any case sooner or later, 
but collapse of the state institutions. We have seen that in 
other places, including in the Middle East, and we do not want 
to see the Syrian Government disappear. The institutions of 
state, the judiciary, a police force that is able to maintain 
law and order, banks, financial systems, et cetera, so 
infrastructure, electricity.
    Where we see that degrading further, that would be a sign 
that things are going even worse, will create more refugee 
flows, will help extremists. And that is why we are increasing 
our assistance to these areas which have been liberated from 
government control, and where state institutions, frankly, are 
failing. So, we are directly now helping local administrative 
councils, which have been set up by the Syrian revolution.
    We will work very closely with Prime Minister Ghassan Hitto 
to funnel assistance into these local councils so that they can 
prevent the full collapse of state institutions. I think that 
is our biggest concern in terms of maintaining unity, and 
keeping Syria from being an operating base for terrorists, 
extremists, helping maintain security. That's the main thing.
    Mr. Schneider. But if unity is not achieved, or achievable, 
what is our best alternative?
    Ambassador Ford. Congressman, I think today, March 20th, we 
can get to a solution that maintains the unity of Syria. The 
different groups in Syria represented in this Coalition that I 
talked about all want to maintain Syria's unity, even the 
people, the foot soldiers of Bashar al-Assad's ruthless army 
are not calling for the division of the country. I don't think 
Syrians are looking to divide their state. So, we have to 
figure out a way to get a negotiated agreement where everyone 
feels safe within a unified Syria.
    It could be that the government is going to look entirely 
different from how this last government did. It certainly has 
to with respect to its treatment of citizens in terms of 
dignity and respect for human rights. But I can imagine lots of 
political scenarios where you can work out deals between the 
groups.
    Mr. Schneider. And taking it a little more regionally, as 
was mentioned before, we have refugees, I'm looking to the 
whole panel now, refugees in Turkey, 200,000, 400,000, 
overwhelming in Jordan, we're seeing in Lebanon. Long-term this 
becomes not just a financial burden, but a political risk to 
these countries in the region, and the region as a whole.
    What do we need to make sure, and how can Congress help 
make sure that we do everything necessary so that that does not 
happen?
    Ms. Richard. Thank you for asking, Congressman. In our 
conversations with these neighboring countries, they have 
explained to us the strains and the burdens that this is 
putting on their societies. There are economic strains, and 
they are also sometimes tensions between the groups in those 
countries, like in Lebanon, for example. We were talking before 
about Christians, I was thinking about how Christians and 
Muslims live together in Lebanon, but when you have these extra 
burdens put on a country, it can really provoke tensions among 
different communities.
    So, what Congress can do is continue to provide assistance 
so that we can support these countries. In some cases, such as 
Jordan, we have a bilateral assistance relationship. In the 
case of Lebanon, we really prefer to work through international 
organizations. And even in Turkey can do discreet things by 
providing assistance through non-governmental organizations, or 
have technical experts from the international organizations 
provide assistance, even though the Turks are very much in the 
lead of their own camps.
    I realize that asking for more money at this current time 
and this environment on Capitol Hill, I don't have to tell you 
that that sort of goes against the grain, but that is the key 
way that we can convert our good intentions to real live aid, 
and make a difference in people's lives on the ground.
    Mr. Schneider. If there's time.
    Ms. Lindborg. Well, I will just add that I detail out in my 
testimony some of the ways in which we're working to help the 
communities who are stretched and strained by the influx of 
refugees, and working directly with the governments of these 
countries to provide additional support. So, it's an important 
question, and one that we're deeply focused on.
    Mr. Schneider. Thank you.
    Chairman Royce. Mr. Scott Perry.
    Mr. Perry. Thank you, Mr. Chairman. And thank you folks on 
the panel for your attendance and your testimony. Probably most 
of my questions will be addressed to Ambassador Ford. Thank 
you, sir.
    I'm wondering regarding the red line, and I know we've kind 
of kicked this horse a bit, but I want to get some specifics, 
if I could, if you know them. What are the possible 
consequences? I share your skepticism of the current reports, 
but let's say that they are true, or let's say they become true 
at some point, what are the ranges of possible consequences 
that the American people can expect from the administration as 
a response?
    Ambassador Ford. Congressman, I really do not want to 
speculate here about hypothetical situations. What I do want to 
underline is that the President has said there will be 
consequences, and that we will seek strongly that the people 
who use chemical weapons be held accountable. Exactly what 
those consequences would do today, I cannot speculate on.
    Mr. Perry. Have they been discussed? Have consequences been 
discussed that you know of?
    Ambassador Ford. I am very certain, Congressman, that they 
have been discussed. But, again, I don't want to speculate on 
what the hypothetical possibilities are. I just--I do not want 
to go there. I do want to underline how seriously we take the 
reports.
    Mr. Perry. I appreciate that, but I think it is important 
for the world to know, for Congress to know, for Americans to 
know what we can expect to see, at what point, so we can have 
that discussion, because if it happens, and when it happens, it 
will be very quick, and we don't want to be in a position of 
Monday morning quarter backing after-the-fact, and making sure 
we got it right. I understand your reluctance to provide that 
information, but I think it's important for the American people 
to know.
    And I'm not talking about hypothetical situations. I mean, 
we have to have a plan, and we should know with the caveat that 
there are certain security requirements, to know what those 
plans are, what those possibilities are.
    With that, do we know with any certainty what kind of WMDs, 
if that's what we're discussing, whether it's sarin gas, or 
whether it's choking agents, or blister--what are we talking 
about? Do we know?
    Ambassador Ford. Syria has, the Syrian Government has the 
largest stocks of chemical weapons of any country in the 
region, and it includes the things that you mentioned. So, 
because we cannot yet state with certainty that chemical 
weapons have been used in the last days, I cannot tell you what 
happened.
    I can tell you that we have a large team of people working 
on it right now. And I understand your concerns about 
explaining to the American people, but I think first we need to 
understand what exactly has happened, if anything.
    Mr. Perry. I would agree with you. However, right now we're 
looking at the anniversary of Iraq, and a lot of folks are 
questioning what happened there, and why did we do that, and 
what did we get out of it? And it's topical because we don't 
want to end up there again, and we should learn from those 
mistakes. And right now I'm not sure that the American people 
have the confidence of what the plan is.
    Of course, having no clue what the plan is, we don't want 
the current administration to make the mistakes of any of the 
past administrations. With that, and with your characterization 
of the stockpiles that Syria has, I think the American people, 
and I think the world see two outcomes here.
    I mean, Assad has very little impetus to do anything but 
stay there. If he leaves willingly, he's going to be tried for 
war crimes and spend his life in prison. I think that's a fait 
accompli at this point. Maybe I'm wrong, but that's what I see. 
So, I'm wondering what safeguards are being put in place 
regarding cross-border material transportation of the things 
that we've discussed?
    Ambassador Ford. We understand the risk you're talking 
about, Congressman, in terms of leakage of materials, which is 
why we have underlined to the Syrian authorities, and to their 
friends that these materials have to stay in their sites, and 
they have to stay secure.
    Mr. Perry. And let me just clarify, the Syrian authorities 
you're talking about are the ones that are currently in power?
    Ambassador Ford. Correct. But I would also say, I mentioned 
that I have met General Idris, and we have also told him that 
we would view their using these kinds of weapons also as 
completely unacceptable.
    Mr. Perry. But just one last question, Mr. Chairman, with 
all due respect.
    What safeguards--have you discussed any safeguards 
regarding border control of these agents, other than telling 
the current regime don't do anything with them, don't move 
them. What are we doing proactively to make sure they don't end 
up in the wrong hands, or on our shores, or affecting our 
interests around the globe?
    Ambassador Ford. Congressman, they have the neighboring 
states, Iraq, Turkey, Jordan, and Lebanon. We have different 
kinds of bilateral programs with Iraq, with Jordan, with 
Lebanon. Certainly, with Turkey, again, we have a regular 
conversation on the question of the Syrian chemical weapons 
stock, and what is to be done about it. So, what I can tell you 
here is that all of the countries are sensitive to the risks.
    We are looking to be helpful with them to address those 
risks, and each government is taking different responses 
according to its differing needs.
    Ms. Ros-Lehtinen [presiding]. Thank you very much, 
Ambassador. Thank you, sir. Mr. Faleomavaega.
    Mr. Faleomavaega. Thank you, Madam Chair. And I want to 
thank the members of our panel for their testimonies this 
morning.
    I just wanted to ask Secretary Richard, with the depth of 
your understanding of refugee issues, and in your capacity as 
the Assistant Secretary, what is happening in Syria? Do you see 
a similar pattern in terms of what took place also in Rwanda 
and Darfur in terms of the crisis that we're facing in Syria 
today? Are we dealing with the same situation that we found 
ourselves in with Rwanda and Darfur?
    Ms. Richard. The difference between Syria and Rwanda is 
that Rwanda was carried out by large numbers of people using 
very simple implements, machetes, and they set upon their 
neighbors and they slaughtered them over a very quick period of 
time.
    In Syria, we see months and months going on that people are 
being killed by their own government, and that they are being 
killed from the sky. Some of the refugees we spoke to in Jordan 
were talking about barrel bombs that would be dropped, so they 
weren't killing face-to-face. The barrel bombs would come down, 
explode, and take out large groups of people. The shrapnel 
would go sideways, they would maim and injure children, the 
elderly, ill people. And then, also, as Robert has discussed 
with me, Scuds are now being used to just destroy whole city 
blocks.
    So, it's probably more efficient to use that kind of awful 
weaponry from the sky. And the results then are the same: Lots, 
and lots, and lots of innocent lives lost, and a very 
completely senseless waste of life.
    Mr. Faleomavaega. Ambassador Ford, you mentioned earlier 
that our current policy is that no military assistance is to be 
given to the Syrian Opposition forces. However, it's okay for 
Russia, Iran, and even North Korea to continue to supply the 
Syrian Assad's regime with all the military equipment, things 
that they needed so that he can continue killing his own 
people.
    Do you see somewhat of a contradiction here in terms of the 
U.S. just being an observer in all this, while the killing 
continues because of countries like Russia and Iran?
    Ambassador Ford. Congressman----
    Mr. Faleomavaega. And, by the way, Iraq allows Iran 
airspace to transfer so-called medical supplies, and I'm told 
it's not. It's all military hardware that Assad needs to 
continue his killing spree. Can you help us figure this out?
    Ambassador Ford. Congressman, our policy is not to give 
military assistance. That is, actually, exactly factually 
right. However, it is not factually right to say that the 
United States thinks that it is okay for other countries to 
provide assistance to the Assad regime.
    I did say already that we have urged the Russians not to 
send military equipment to the Assad regime. I have said 
already that we've asked the Russians to join us and the rest 
of the international community in putting pressure on the Assad 
regime.
    We, Congressman, have been at the forefront of countries 
denouncing Iranian behavior in Syria. It was the United States 
that first started talking about it publicly. And the same with 
North Korea. We have had sanctions in place on Iran and North 
Korea, as well as on the Syrian regime precisely because of 
this kind of behavior which we find destabilizing not only in 
Syria, but to the broader Middle East region.
    Mr. Faleomavaega. To follow up on Chairman Chabot's 
question on the chemical and biological weapons, I'm told, at 
least according to reports in July of last year, that the 
Syrian officials had given every assurance that the stockpiles 
of the chemical weapons--primarily nerve gas and mustard gas--
are fully secured under the supervision of the military, and 
will never be used unless Syria faces external aggression.
    I'm sure you're quite familiar with that. Does that sound 
like an invitation from the Assad regime? Just make my day, go 
ahead and attack us and see what will happen. Does that seem to 
be the danger that we face ourselves if this should ever take 
place?
    Ambassador Ford. We've studied those remarks very 
carefully, Congressman. And you have hit exactly what concerns 
us, is that as the military balance shifts steadily against the 
regime, and it grows more beleaguered and more desperate, that 
they will try some ruse and end up using them themselves. And 
that is why we take the reports the last couple of days very 
seriously, and we're trying to determine what's happened.
    Mr. Faleomavaega. Thank you, Madam Chair.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Faleomavaega, 
Ambassador. Mr. Weber is recognized.
    Mr. Weber. Thank you, Madam Chairman.
    I missed much of the hearing because I had another one I 
had to be at, so forgive me if some of these questions are 
redundant.
    Ambassador, would you outline for me whether it's 
Hezbollah, al-Qaeda, whether the external forces that are 
working in Syria to overthrow Assad, kind of in order of their 
strength, if you will, in your opinion. And then let's go a 
step further than that and outline for me what you see a post-
Assad Syria looking like. Who has the most--who winds up with 
the most power after he leaves?
    Ambassador Ford. Congressman, there is a variety of 
external actors now in the Syria crisis. Some are trying to 
help the government----
    Mr. Weber. I've got time, go ahead and describe it.
    Ambassador Ford [continuing]. And there are some that are 
trying to get rid of them, like the al-Qaeda affiliate, Jabhat 
al-Nusra. We think the Jabhat al-Nusra still is a minority 
within the armed Opposition, maybe 10, 15 percent.
    Mr. Weber. Who's the number one external influence, al-
Qaeda?
    Ambassador Ford. Against the regime, yes, it would be.
    Mr. Weber. Okay. Number two?
    Ambassador Ford. And then there are other countries that 
are also involved in the fight against Assad's regime, but what 
concerns us are the extremists at the top of that list. There 
are others, but at the top of that list.
    Mr. Weber. Okay, enumerate the extremists for me.
    Ambassador Ford. There are a variety of groups fighting in 
different cities against the regime. I'll just throw out some 
names. One of them is called the Hawks of Syria, Saqur al-Sham, 
one is called----
    Mr. Weber. How strong are they?
    Ambassador Ford. Smaller than Jabhat al-Nusra, but their 
strength varies location to location. A lot of these are very 
localized groups, Congressman.
    Mr. Weber. Okay.
    Ambassador Ford. What's interesting about Jabhat al-Nusra 
is it has a national command, and it's more dangerous that way.
    Mr. Weber. Okay.
    Ambassador Ford. You asked what would a post-Assad----
    Mr. Weber. The influence of those groups on a post-Assad 
government.
    Ambassador Ford. Yes. The Supreme Military Command of the 
Free Syrian Army, General Idris and his people, did not allow 
al-Nusra and extremists groups to join that military command. 
We think that they will resist the influence of those groups 
after Assad departs. And I mentioned already that in Syria we 
see some places where extremist groups have tried to impose 
religious courts, and generated a very negative reaction near 
Aleppo, and also down in the Damascus area, for example, most 
recently in Eastern Syria in a place called Mayadin.
    We have seen places where Jabhat al-Nusra has tried to 
impose imams in mosques replacing them with foreigners instead 
of Syrian imams. And, again, it's generated a very negative 
reaction.
    Mr. Weber. In your opinion, is that a good thing for 
American sentiments?
    Ambassador Ford. What I think is important, Congressman, is 
that in this Syrian uprising, in this revolution there are two 
competing visions of a future Syria. One is an Islamist 
extremist vision supported by this al-Qaeda affiliate and 
others, and there is a vision promoted that would be of a 
tolerant Syria which respects the rights of all Syrians 
equally.
    We want to weigh in strongly on behalf of those who 
advocate that second vision, and that is what we are----
    Mr. Weber. Well, I get that. That goes without saying. What 
is the percentage chance that that's what's going to happen? 
What we don't want to happen is for any arms--we don't want 
them to wind up in anti-American hands, let's face it.
    Ambassador Ford. We understand that, Congressman.
    Mr. Weber. Go ahead. So, what's the percentage of 
likelihood in your opinion of that happening?
    Ambassador Ford. Secretary Kerry during his visit to the 
Middle East recently highlighted that we are increasingly 
confident that countries that are providing assistance can do 
so in ways such that arms do not get in the hands of 
extremists. This is something that, frankly, we talk to them 
daily about.
    Mr. Weber. Does Assad know that?
    Ambassador Ford. Oh, absolutely he knows that.
    Mr. Weber. Okay. Would you call him and tell him, in case--
you know, make sure that he knows that?
    Now, let----
    Ambassador Ford. Congressman, I think today he has not yet 
decided that his days are numbered, and that he's going to have 
to leave.
    Mr. Weber. What advice would you give us to expedite that 
decision?
    Ambassador Ford. I hope the Congress will work with us to 
strengthen the Syrian Opposition. I hope that Congress will 
support our efforts. We've talked about Iraq and its role. We 
need all the pressure we can get on the Iraqis to get them to 
see where their long-term interests are best found.
    We need, also, to show political support to the vision of 
Syria that I mentioned, that is of a tolerant society where 
there is coexistence----
    Mr. Weber. We will certainly be doing that.
    Ms. Ros-Lehtinen. Thank you.
    Mr. Weber. Thank you. My time is expired. Thank you, Madam 
Chair.
    Ms. Ros-Lehtinen. Thank you so much, Randy. Ms. Bass of 
California is recognized.
    Ms. Bass. Thank you very much, Madam Chair.
    I want to follow-up on a couple of the points that the 
Ambassador was just making. And forgive me for also being in 
and out. You might have answered some of these questions, but 
you mentioned that Congress could be helpful by helping to 
strength the Syrian Opposition. That's where I wanted to center 
my questions, because you describe two centers of power, the 
military, and then we have this interim Prime Minister who, I 
guess, was voted in yesterday with 35 votes out of 63 members 
of the Coalition.
    So, with these centers of power like this, just want you to 
elaborate a little more. My concern would be--and I know a lot 
of my colleagues would like to see us arm the Opposition, but 
I'm definitely concerned as to who this is we would be arming, 
since some of these folks are from Assad's military who've 
defected, and correct me if I'm wrong.
    But what do you think about whether the military will be 
willing to subordinate itself to political leadership? And then 
this leader who was just elected, it just reminds me of Karzai. 
He hasn't been in the country for a couple of decades, and he 
seems pretty weak by everybody's account.
    Ambassador Ford. A couple of things. Thank you, 
Congresswoman. A couple of things.
    I understand the concerns about arming and our policy, 
again, is today----
    Ms. Bass. I know.
    Ambassador Ford [continuing]. Not to provide armed 
assistance.
    Ms. Bass. At this point, I'm glad.
    Ambassador Ford. With respect to the political side, we 
think--let me say a couple of things about the Prime Minister 
that they selected yesterday, that was elected. He was happily 
in Texas, and gave up his work there to go and work on behalf 
of Syrians, and in particular to help organize humanitarian 
assistance efforts, in fact, and Nancy's people in Turkey 
worked with him there. And he made a very favorable impression. 
He is a capable manager.
    Ms. Bass. Isn't that Karzai's background? Wasn't he happily 
in Texas, too?
    Ambassador Ford. I'm not an expert about Afghanistan, so I 
can't address that question.
    Ms. Bass. Okay, I'm sorry.
    Ambassador Ford. But what I would say to you is, in the 
end, the Syrian Opposition itself has said that a transitional 
government will have to be established. So, whether or not 
Ghassan Hitto has a role in that, I think is not determined. We 
view this as a short-term step to help provide services, to 
help provide humanitarian assistance into areas of Syria 
liberated from regime control. And that's how he defines his 
role. He spoke yesterday to the press in Turkey about that.
    So, his long-term prospects politically, I just can't speak 
to. I don't think that's what they're thinking about now. They 
have much more urgent problems with respect to the outflow of 
refugees into the neighboring countries, and the dire 
circumstances of Syrians inside Syria.
    Ms. Bass. You also mentioned that what we--so I do want you 
to tell me what we can do as Congress to help in terms of 
strengthening the Syrian Opposition. But you mentioned that 
what we were concerned about, too, what we didn't want to see 
happen was the collapse of the state. And hasn't the state 
collapsed? Does the state have any legitimacy?
    Ambassador Ford. I make a distinction between legitimacy 
and the collapse of the state. There's still large----
    Ms. Bass. It's still functioning.
    Ambassador Ford. Damascus, for example, is still--Central 
Damascus is very much under government control.
    Ms. Bass. I see.
    Ambassador Ford. Fourth largest city. Hama is still very 
much under government control. But in areas where the 
government's control has receded, in the North, and in the 
East, for example, their court system, financial institutions, 
et cetera, in large part have stopped working.
    Ms. Bass. Okay.
    Ambassador Ford. And this is what I was talking about. 
These were huge problems in Iraq 10 years ago.
    Ms. Bass. In my last few seconds, one, I want to thank Ms. 
Lindborg for all of the work that USAID does. I didn't want to 
you ask you a question, though.
    You mentioned the rape kits and sexual assault. And I was 
just wondering what the capacity is to deal with that? Meaning 
that, I mean, we even have trouble in our cities, some of our 
cities in terms of putting a woman through that and then 
nothing happening.
    Ms. Lindborg. It's limited, but it's important that through 
the training, through the provision of those supplies and also, 
by the way, just a lot of regular supplies that women need.
    Ms. Bass. Yes, I understand.
    Ms. Lindborg. For those who have been forced from their 
home, and then those who experience the violence. It's limited, 
but it is definitely a part of how we train those who are 
participating in the clinics and hospitals that we support.
    And you are such a wonderful champion of women, I want to 
make another comment.
    Ms. Bass. Sure.
    Ms. Lindborg. And that is, part of supporting this tolerant 
secular vision is also supporting the many strong, powerful 
Syrian women to have a voice, and to be a part of that future.
    Suheir al-Atassi is a very strong, wonderful woman who's 
heading the Assistance Coordination Unit. We've worked closely 
with her, and along with our State colleagues we are providing 
support and training for a group of women who have put together 
a charter for Syrian women. This is part of a long-term 
commitment that we have to support women's voices to be at the 
table during negotiations, and to be part of the future.
    Ms. Bass. Thank you.
    Ms. Ros-Lehtinen. Thank you very much. Thank you, Ms. Bass. 
And Mr. Messer is recognized.
    Mr. Messer. Thank you. I'll start with a question for the 
Ambassador.
    Coming from Indiana, a couple of kind of homespun wisdoms 
are you can judge people by their actions, and you can judge 
them by their friends. That's a couple of pretty good ways to 
judge folks. And when it comes to Assad, as you guys have laid 
out very clearly, he's got a lot of the wrong friends. And when 
you look at the actions of the murder of 70,000 people, the 
displacement of millions of folks, and the atrocities that you 
guys have described, obviously, the actions there are terrible.
    Following up on the questions of the last couple of 
questioners, the challenge that we face as policy makers when 
looking at the Opposition and judging their friends, al-Qaeda 
and others, some real challenges there, as well. And I know 
you've tried this a few times, and you focused a little bit on 
the less savory folks, so I would ask you to expand a little 
bit upon, people use the phrase moderate rebels, the folks we 
would like to see. And then I mean this with great respect, as 
policy makers trying to figure out how we help, a shot at what 
can we do? What, if anything, can we do to try to help those 
who would be closer to the kind of government that we would 
like to see post-Assad?
    Ambassador Ford. Congressman, let me tell you a little bit 
about the head of the Syrian Opposition Coalition. We talked 
with Congresswoman Bass about the gentleman that they elected 
yesterday as Prime Minister, but let me talk about the 
President of the Opposition Coalition.
    He is an imam from the largest mosque in Damascus, actually 
the Umayyad Mosque. I've met him many times. I think what most 
impressed me about him was after we designated the al-Nusra 
Front as a terrorist affiliate of the al-Qaeda and Iraq group, 
there was a lot of criticism of us inside Syria. That is not a 
secret.
    In a very public speech broadcast throughout the Arab world 
at the Friends of Syria meeting in Marrakesh in mid-December, 
Muaz came right out directly and said, ``The kind of ideology 
that al-Nusra espouses, the extremists, the intolerance, even 
imposing a special tax on Christians,'' which hasn't been done 
in the Middle East in hundreds and hundreds of years, `these 
things are rejected,'' he said. ``That is not what we are 
about.'' He talked, instead, about reaching out to Alawites, 
who are the backbone of Assad's remaining support. He said, 
``Join us. Don't fight us, we're not fighting you. Join us.'' 
This is what I'm talking about with the kind of tolerance.
    Sheik Muaz wrote an open letter to the Syrian Christian 
community. We'd be happy to get you a copy of it. And I know it 
has had a big impact, because Syrian Christians have talked to 
me about it. But this is a vision of respect for the dignity of 
all Syrians. This is a vision of tolerance, of coexistence, and 
I think, frankly, the vast majority of Syrians really want to 
believe in that vision.
    So, the extremists that we've talked about are a minority, 
but I have to be honest and say as the violence goes on, those 
extremist voices are getting louder.
    Mr. Messer. Okay. With the remaining time I have left, 
thank you for the humanitarian work that we're doing. 
Obviously, very important.
    If you could expand, you'd mentioned briefly the efforts 
that we're making to make sure that those that are being helped 
there recognize the role that America has played in providing 
the help, which I think has some long-term impact toward our 
earlier question. If could you just detail that a little bit, I 
would appreciate it.
    Ms. Lindborg. As I said, we're examining on a case-by-case 
basis when and where we might be able to safely brand, but 
we're also looking at what are the other ways in which people 
get their information. So, we recently, the three of us took a 
trip to the region, did intensive regional media, Arabic 
language thanks to Ambassador Ford's Arabic.
    We are using all ways that we can to get through the media, 
using things like Twitter, Skype, broadcasting into Syria. 
We're doing weekly calls with the Diaspora community here in 
the United States. So, it's really a full-on campaign of all 
the ways that we can let the Syrian people know that the 
American people are absolutely with them in their time of need. 
And this hearing is actually a very good opportunity, as well, 
so thank you.
    Ms. Richard. The High Commissioner for Refugees is in town 
for a few days, so he and I went to the studio part of the 
State Department yesterday and spoke to the lead correspondent 
from Syria Deeply, which is a group of journalists in New York 
who are trying to get information into Syria. And we do that 
sort of thing all the time. The day before I'd been on CBS 
News. We're trying to get our messages out however we can, so 
we really appreciate your putting a spotlight on the 
humanitarian pieces of this crisis.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Messer. Mr. Vargas 
is recognized for 5 minutes. Thank you, sir.
    Mr. Vargas. Thank you very much for the opportunity.
    You know, when I was young, I was always disgusted when I 
saw one of these dictators, one of the murders go into exile. I 
always thought that that was very unfair, that they would take 
someone who had done all these atrocities, and they'd allow 
them usually to go to France, usually Paris, you know. You 
know, you think of him living a very luxurious life with his 
family. I always thought that was very unfair, and certainly 
seems like we've changed those laws.
    As I've gotten older, however, I think of this situation 
now, and I wonder the thought process of someone like, you 
know, the President, Bashar al-Assad. I wonder what he's 
thinking. I'm wondering, and this started to happen when he's 
looking over in Egypt, and he's looking at the former President 
there in prison, and potentially going to be executed, and you 
said, Ambassador, he's going to think it's time to call it 
quits and go. Where?
    I mean, it's very interesting because now we've gotten so 
tough on these people. We don't allow them to exile. We try to 
hunt them down. We try to put them in jail. We try to do all 
these things to them, and it's appropriate, of course, with all 
the horrible things that they've done. But what do you think 
is--if you can get into his head, or someone like him, you're 
an Ambassador, what is the thought process going on his head? 
Oh, I should just give up. This would be better if I just give 
up. I've been a dictator this whole time. Or do you think hey, 
roll the tanks? What do you think?
    Ambassador Ford. I'm not a psychiatrist. I've met Bashar 
al-Assad twice, but I wouldn't say that I understand his 
psychology perfectly. I think today he still thinks he can win 
militarily with help from Russia, from Iran, from Lebanese 
Hezbollah, but I think he also must understand as his windows 
rattle because the fighting is getting closer, he must be 
thinking about whether or not his calculations are correct.
    We think, Congressman, that Syrians will have to decide how 
to hold him and his ruthless circle accountable. It is 
ultimately a decision for Syrians to make. What we have sought 
to do is help them develop the capabilities so that they can 
hold trials, if that's what they want to do, so that they can 
assemble evidence packages up to international standards. And 
we actually are helping a center which we set up in Lyon, 
France to do that with Syrian investigators.
    Mr. Vargas. I guess, how realistic is that? If you're a 
dictator who--you became the dictator because your father died, 
so you've always been in charge. Your father was a ruthless 
person. Do you think then he's going to think well, you know, I 
think I'll take my chances here and let all these people that 
I've ruled very cruelly for all these years take me to court, 
because I think they're going to be very generous in their 
dictates? Or do you think he's going to kill 70,000 people, do 
you think he's going to murder people, as many as he can, and 
run a war of attrition?
    I think this is one of the issues that we really have to 
rethink. I mean, I know it's not political to say that but, you 
know, is it really worth the murder of 70,000, 100,000 people, 
tanks mowing them over, being bombed from the air, mostly 
children. In a war, children always lose. Or do you let one 
really nasty, terrible, horrible human being potentially 
escape? I don't know. Maybe they had it right for centuries 
before we had our more strict dictates in law.
    I put it out there, because I've got to tell you, I thought 
that this is probably what Hosni Mubarak was going to do, also. 
I thought he would roll the tanks. He seemed to be more of a 
human being at the end and didn't do that, but this guy, of 
course, did. I don't know where else would he go? If he's going 
to be tried by his own people--Ambassador, go ahead. I'm sorry.
    Ambassador Ford. I don't--two things I would say on this, 
Congressman. First, I don't know where he would go either, if 
he decided to flee. I mean, I just--I do not know. There are 
going to be a lot of countries that wouldn't take him because 
of all of the awful things that he is responsible for. I would 
also comment, he has a family, and he's got to think about 
them. He has young children. He has a wife, so what's going to 
happen to them?
    And then, finally, in the end, Congressman, I don't think 
these are decisions that Americans have to make. These are 
decisions that Syrians are going to have to make, because 
they're going to have to live with the results. So, what we 
have tried to do is to give them options, to give them 
capabilities to deploy if they decide to follow a particular 
option. And I'm very proud that we have given them those 
options, and I know that they appreciate it.
    Mr. Vargas. Thank you. Thank you very much.
    Ms. Ros-Lehtinen. Thank you, Mr. Vargas. Judge Poe is 
recognized for 5 minutes.
    Mr. Poe. Thank you very much, Madam Chair. Thank you all 
for being here.
    I was recently in Turkey and saw our Patriot batteries, the 
Dutch batteries down on the border with Syria. I went to the 
refugee camp there in Syria where 150,000 Syrians are in 
Turkey. I could tell you, I was quite impressed with the way 
the Turks are handling the thousands of people that they're 
taking care of.
    I had the opportunity to talk to some of the folks from 
Syria, including the women. I got the impression that the 
persecution of women, specifically, is not really confined to 
Assad's forces, that it's anybody. It's criminals from foreign 
countries, it's so-called Freedom Fighters, it's 
revolutionaries, it's just bad guys, and it's the government, 
which I think may indicate--it indicates to me that there are a 
lot of bad things happening to the civilian population by the 
people who are involved in the military conflict.
    Quick question, Ms. Lindborg, Ms. Richard. Is that what you 
understand, or do you think it's confined to the government 
forces alone?
    Ms. Lindborg. First of all, thank you for taking the trip. 
It's an important symbol to have you visit. And you are 
absolutely right, this is--this goes far beyond one side. And I 
think it more than anything else is really emblematic of a 
global epidemic of violence against women. We see this--this 
goes far beyond the borders of Syria.
    And if you noted on Valentine's Day, there was a wonderful 
event called, ``A Billion Rising,'' which is women around the 
globe taking to the streets with music and poetry, but making 
the strong assertion that there's no longer a place on this 
planet for violence against women.
    We are working in all the ways that we can to address the 
symptoms, to provide treatment, counseling, medical care, but 
at the end of the day, there are deep norms that need to be 
changed around the world.
    Mr. Poe. Okay. Well, I appreciate you all's work on that. 
You know, if I had my way, when we rounded up Assad and his 
bandits, we'd take all those criminals and just give them a 
trial together, put women on the jury, and let them decide.
    But, Mr. Ambassador, I want to come back to you on another 
issue, because my time is limited. I appreciate your work, and 
people in the diplomatic field. I've been called a lot of 
things, but a diplomat is not one of them.
    I want to talk about Assad. I met him. I didn't like him 
when I met him. I don't like him now. He's a bad guy. Is the 
scenario playing out, though, that Assad is going to retreat to 
his domain, his regime around Damascus, and maybe cede the area 
outside of Damascus, and then hold his ground? Could we see 
maybe a smaller Syria, a smaller Assad regime, and whoever gets 
the rest of it is maybe in the way that it plays out? Do you 
see that happening, is that his plan?
    Ambassador Ford. Congressman, first, can I just add one 
point to the women, because this is important. We have in the 
Congressional notification, the way we intend to use some of 
our assistance monies in Syria, we will spend approximately $5 
million to help the Syrian Opposition Coalition and these local 
councils that I talked about in liberated areas to develop 
their police forces, because law and order as you heard in 
Turkey is a big issue. So, we need--working with partners. I 
think the Germans are going to help us with this. We need to 
help get the police force----
    Mr. Poe. Excuse me, Ambassador. I only have a minute left.
    Ambassador Ford. Yes. Oh, on the----
    Mr. Poe. Could you just answer my question?
    Ambassador Ford [continuing]. On the question about Assad, 
there's two possibilities. We see him pulling forces in. Will 
he hold out in Damascus at the end? Maybe, but a lot of 
observers think he might, instead, retreat to the heartland of 
the Alawaite base of his support, which would be up along the 
coast in Northwest Syria. We're not quite sure which he would 
do.
    Mr. Poe. The other question----
    Ambassador Ford. We think he----
    Mr. Poe. Let me reclaim my time. I'm sorry, Mr. Ambassador. 
The Opposition, when Mr. Weber was asking you questions, the 
leading Opposition movement, is that an al-Qaeda affiliate? Is 
that what you said?
    Ambassador Ford. No.
    Mr. Poe. Okay.
    Ambassador Ford. Absolutely, it is not. The al-Qaeda 
affiliate is a small part of the Opposition. It's a small 
minority, but his voice is getting louder.
    Mr. Poe. This Ghassan Hitto, the new Prime Minister, what's 
his affiliation with the Muslim Brotherhood? We've heard 
reports about his affiliation with the Muslim Brotherhood. 
What's your opinion? That's my last question.
    Ambassador Ford. I've met him twice, Congressman, and he 
struck me as more Texan than Muslim Brotherhood, frankly.
    Mr. Poe. So, you don't think he's affiliated with the 
Muslim Brotherhood?
    Ambassador Ford. I don't know what his political 
affiliations are, but I do know that he also has a tolerant 
vision of Syrian society. He is not a religious extremist, far 
from it. And that he has at some self-sacrifice gone over to 
help with the humanitarian crisis in Syria. He did not have to 
do that. He was comfortable in Texas.
    Mr. Poe. Thank you, Madam Chair.
    Ms. Ros-Lehtinen. Thank you. Yes, you had him at he's a 
Texan. Mr. Marino is recognized.
    Mr. Marino. Thank you, Madam Chair. Good morning, folks.
    Ambassador, you can leave your microphone on. All right? 
And I saw on the news today--I have two main concerns, the 
innocent people in Syria, and our good friends, Israel. And I 
saw today the President getting off the plane, and meeting the 
President and Prime Minister. And it kind of reminded me of my 
daughter's first prom date, bringing him to the house to meet 
me. It was a little tense situation there.
    But be that as it may, what are the chances that Hezbollah 
will remain a potent force in Syria? And, if that's the case, 
will Hezbollah's role in Lebanon be affected?
    Ambassador Ford. I think Hezbollah wants to remain a potent 
force in Syria. There's no question of that, and that's why 
they are increasing their presence now, and they're increasing 
their assistance. But I have to tell you, Congressman, that 
when I talk to Syrians across the spectrum, those who do not 
support the government, the anger at what Hezbollah has done to 
help the regime is palpable. So, I think the transition 
government, when it comes, and the government after that is not 
going to want a relationship at all with Hezbollah, like what 
the Assad regime had.
    Mr. Marino. What is the status of arms transfer to 
Hezbollah today? Can you respond to that question?
    Ambassador Ford. I can't go into details here in an open 
session on the intelligence, but what I can say to you, 
Congressman, is that arms continue to reach Hezbollah from 
Iran. But I think, also, Hezbollah's actions in Syria suggest 
to me, as do Iranian actions, that Hezbollah is very nervous 
about their stakes in Syria, and it will have an impact, also, 
on their position in Lebanon.
    Mr. Marino. Okay. And, historically, Iran, Syria, 
Hezbollah, and Hamas compromised an access of resistance. 
Inimicable to the U.S. interest in the Middle East, how will 
the ultimate fall of Assad affect Iran, Hezbollah, and Hamas?
    Ambassador Ford. The end of the Assad regime will present 
us with big, new strategic opportunities to stabilize that part 
of the Middle East. Iran's losing access to Lebanon through 
Syria will help Lebanon. In addition, losing the Assad alliance 
will make it harder for Iran to spread its influence through 
terror groups that have worked with Syria, and with Iran. For 
us, it would be definitely a strategic gain.
    Mr. Marino. Ms. Richard, could you respond to--I see that 
you've written many articles and opinion pieces, and one of the 
areas is Combating Terrorism. What can we continue to do, or do 
with more strength to address the issues of terrorism, the 
relationship with Syria, and how do we curtail this presently, 
since Assad is still in control?
    Ms. Richard. Congressman, I've written in the past about 
countering financial flows to terrorists, so I'm not qualified 
to answer your question.
    Mr. Marino. I yield back my time. Thank you.
    Ms. Ros-Lehtinen. Thank you, Mr. Marino. And Mr. Lowenthal 
is recognized. No, sir? Thank you. And now we will go to Mr. 
DeSantis, my Florida colleague.
    Mr. DeSantis. Thank you, Madam Chairwoman. Thank you, 
witnesses. I've learned a lot. I appreciate it, and I do not 
believe that Assad should survive. I mean, he doesn't have any 
legitimacy, but that's an easy thing for me to say because I 
don't think he really ever had any legitimacy to begin with.
    I agree with Thomas Paine on the absurdities of some of 
these hereditary dictatorships. I think Paine said is 
indiscriminately, admits any species of character to the very 
same authority, so I think that there's a problem with that. I 
think we see that in North Korea, where you now have Kim Jong-
Un there. He's like a 25-year old kid, and now he's in charge 
of these nuclear weapons. So, not the right way to go.
    Ambassador, in terms of the jihadists that are operating in 
Syria, do you have any idea to what extent these are foreign 
fighters, are they native Syrians, are they a mixture of both?
    Ambassador Ford. The group that concerns us most, al-Nusra 
Front, started out as largely inspired by jihadists from Iraq.
    Mr. DeSantis. And do we suspect that some of those folks 
may have been actually fighting American forces when we had a 
larger presence in Iraq?
    Ambassador Ford. I think that is very possible.
    Mr. DeSantis. Now, what type of international support are 
these foreign fighters, the al-Qaeda type terrorists getting? I 
know that Zawahiri is favorable to them, but do they have any 
other source of support, either ideological, military, or 
economic?
    Ambassador Ford. They do, Congressman, and that's one of 
the things that enable them to attract a lot of recruits. I 
think a lot of Syrians who fight under their banner are not, in 
fact, extremists, but they can get food, they can get 
ammunition from them. And al-Nusra and other extremists have a 
very well developed network of private finance that moves up to 
them, and that they are able to access.
    Mr. DeSantis. If it gets to the point where somebody else 
is going to take over in Syria, somebody like Iran, who's 
obviously done a lot of business with Assad and is an ally, how 
would they kind of mediate between some of these groups? I 
mean, I guess I'm just asking you to just give me your general 
opinion, but would they be willing to work with a group like JN 
or some of these groups, or some of these moderate Syrian 
Opposition groups? I mean, I guess I'm just trying to figure 
out how this would affect Iran's role in the region.
    Ambassador Ford. The groups we're talking about, the 
jihadists, Congressman, hate Iran, hate it passionately, so I 
don't think they would ever work with Iran. In fact, I would be 
concerned that they will actually go out and kill Syrian Shia 
at the end of fighting. That's a different concern, but they 
won't have any truck with Iran.
    Mr. DeSantis. What about the moderate groups?
    Ambassador Ford. People such as the Supreme Military 
Council, I think also are going to be so--well, they already 
are, and they tell us this, they're already so frustrated with 
Iran, and so angry at the Iranian intervention. In many cases, 
it's Iranian equipment that's causing them casualties, I don't 
think they're going to have a good relationship at all with 
Iran after this crisis comes to a close and we have a 
transition government.
    Mr. DeSantis. And then I guess the final thing that 
concerns me, it just seems like in this part of the world when 
you have different groups potentially jockeying for power, it 
seems like the most militant and violent tends to take the 
upper hand, just because they're willing to do whatever. I'm 
worried that that will happen in this case.
    You know, 1) do you think that that's a legitimate fear? 
And, 2) what can be done, if anything, from our perspective, 
the United States, to shape that outcome in a way that's going 
to be better for peace in the region?
    Ambassador Ford. That is exactly our concern, Congressman, 
that my experience in other countries where I've worked, such 
as Algeria during their civil war, and in Iraq, that as the 
violence grows, extremists profit from that. They benefit from 
that. Their loud voices, their hard lined positions, the 
grandstanding appeals, and so we think it is really important 
to empower people who have a much more tolerant vision of what 
Syrian society should be. We need to target, as best we can, 
resource flows that go into these jihadist groups, and that is 
one of the impacts of our designating al-Nusra, for example. 
And we have to find ways to help the Syrian groups that are 
inside the areas liberated from government control to provide 
basic services which will undercut a lot of the appeal that the 
extremists have. That is why we have notified Congress about 
programs we want to start to enable the local councils and the 
Syrian Opposition Coalition to provide those services.
    Mr. DeSantis. Thank you. Yield back.
    Ms. Ros-Lehtinen. Thank you very much, sir. Mr. Collins of 
Georgia is recognized.
    Mr. Collins. Thank you, Madam Chair. I appreciate it.
    Ambassador Ford, you emphasized the need to solidify, and I 
think your words were solidify the efforts of Syrian moderates 
who are competing for influence with extremist groups, and to 
curtail the influence of extremists by helping the national and 
local Opposition leaders, providing the vital services, food, 
water, electricity. I heard you, and understood you correctly 
on that. Correct?
    The question comes in is, why are we providing so much of 
this support through U.N. agencies that rely on the consent of 
Assad regime for their access. You've talked about crossing 
lines and there's support for crossing lines, but I see it as 
strengthening and prolonging the survival of the regime by 
allowing it to dictate the terms of access. And then, in turn, 
they're able to claim credit for providing services to their 
civilians.
    Wouldn't you agree that that would be how Assad sees that, 
and how----
    Ambassador Ford. Congressman, I'm making a huge distinction 
between helping local councils in liberated areas provide basic 
services. Getting chlorine so that public water taps can be 
turned back on, buying some generators so that essential 
buildings will have electricity. That is not the kind of 
humanitarian assistance provided to people in need in 
government-controlled areas. That's a different thing. So, 
there are the programs that we're talking about. This is the 
$60 million that Secretary Kerry announced in Rome, and that we 
just sent notification of to Congress at the beginning of the 
week. That is to work specifically to strengthen these nascent 
governing bodies in liberated areas, and to help knit together 
this national Opposition leadership with people on the street.
    Mr. Collins. And you're going to be working those through 
what forms of--through U.N. transfer, NGOs?
    Ambassador Ford. No, no, we do that----
    Mr. Collins. Or we're doing directly?
    Ambassador Ford. We do that directly.
    Mr. Collins. Going to do that directly.
    Ambassador Ford. That has nothing to do with our United 
Nations.
    Ms. Richard. What I'd like to do is defend the U.N. 
presence in Damascus, because they're not there to prop up the 
Assad regime. They're there to make sure that the aid gets in. 
Now, to get visas, they have to get them from the Ministries 
that he controls. But once they're there, their intention, 
which they are, in my judgment, fulfilling, is to get aid out 
to innocent people wherever they can throughout the country.
    Now, in Syria there is no only Opposition on one side, and 
only regime control on the other side. It's more like a 
checkerboard, and they are trying to get it to all these hard 
to reach areas, and they're trying to get to people everywhere.
    Let me give you an example. I was talking to the World 
Health Organization about vaccinations. For 2\1/2\ years, there 
have hardly been vaccination campaigns going on in Syria. 
Disease won't respect where the battle lines are, so we want to 
get the aid in wherever we can using every possible legitimate 
method we can. And the U.N. is playing a very important part of 
that, think.
    Mr. Collins. Well, I think the role of the U.N. in Syria 
and other places be debated, and that's fine and good. I think 
the issue here is how we are proceeding with the aid that we're 
sending, and how it's going in.
    I want to flip the question back, and I want to associate 
myself with the gentlelady from California, Ms. Bass, a few 
minutes ago when we were talking about this issue of the next 
ruling as we go along. And someone who's been elected again who 
came from not inside the country. I want to just continue down 
that thought for just a second.
    It just seems to me we're playing out the same format that 
we have seen many times in many countries, especially in the 
Middle East, where we're coming in with someone who's been 
away, maybe on the forefront, who's willing, as I think your 
words were gave up his work to go help in Syria. That's a noble 
cause, but the legitimacy factor here, and the weakness seems 
to be a continuing problem here.
    Can you address that a little bit more in detail, and say 
why are we not just heading down the same road that we've 
headed down before?
    Ambassador Ford. The easiest answer to that question, 
Congressman, is we aren't heading in. Syrians chose him, we had 
nothing to do with it. We know him because we were working with 
him before on getting humanitarian assistance into Syria, into 
the checkerboard that Anne just described. But we certainly 
didn't choose him, and he's not--I mean, we stayed out of it 
entirely. He was chosen, Congressman, by a council of people 
from both inside and outside Syria to play that role.
    Mr. Collins. But doesn't it concern you? I mean, I 
probably----
    Ambassador Ford. No, I understand the thrust of your 
question, but I don't know that he has a long-term political 
future in Syria. He has been elected for an immediate task of 
managing----
    Mr. Collins. We've seen that sort of thought before. We've 
seen it in Afghanistan, we've seen the, you know, I'll come to 
help, and then we all of a sudden see consolidation of power. I 
mean, we've seen this in other areas, Egypt or other places. I 
understand we're not ``putting him there,'' but I think there 
is influence. If we're influencing in other things we can--
there is influence that needs to be looked at beforehand in 
this process. This is not an easy topic. I'm not asking for an 
easy postcard answer, but I am asking the question, saying I'm 
afraid we're going down the same path again that will reap the 
same problems and benefits as we go forward. I think this is 
too important for us to miss, given the fact that our close 
relationship with Israel, and Jordan, and the stability in that 
region, this is not something we can afford to be playing with 
the next 10 to 20 years. So, I yield back, Madam Chair.
    Ms. Ros-Lehtinen. Thank you very much, Mr. Collins, for 
excellent observations. Thank you to our panelists on behalf of 
Chairman Royce for explaining the humanitarian crisis going on. 
And, Ambassador Ford, the committee looks forward to continuing 
the conversation with you about the conflicting reports of 
weapons, chemical weapons being used. Thank you for your 
clarification.
    And with that, Chairman Royce would like for me to say that 
the committee is adjourned.
    [Whereupon, at 12:06 p.m., the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


               <F-dash>\\<careof><Rx><brit-pound>t<box>s\
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


 <F-dash>\<box><Rx><bullet><box><script-l> stat<box><acctof><box><Rx>t\
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre></body></html>
